Practices Related to Naked Short
Selling Complaints and Referrals




                          March 18, 2009
                           Report No. 450
Practices Related to Naked Short Selling
Complaints and Referrals

                             Executive Summary
Background
The Securities and Exchange Commission’s (SEC or Commission) Division of
Enforcement (Enforcement) has received a great deal of complaints and related
information during the past several years from issuers and investors about a type
of trading called “naked” short selling, which has become an issue of increasing
concern to both issuers of securities and investors. 1 Some of the complaints
received by Enforcement concerned the general impact of naked short selling on
the market. Many complaints requested that Enforcement investigate specific
instances of naked short selling. Other complaints concerned the perceived
failure on the part of the Commission and others, including Enforcement, to
address the harmful effects of naked short selling.
The SEC’s Office of Inspector General (OIG) has also received numerous
complaints, particularly since December 2007, alleging that Enforcement has
failed to take sufficient action regarding naked short selling. Many of these
complaints asserted that investors and companies lost billions of dollars because
Enforcement has not taken sufficient action against naked short selling practices.
These complaints further indicated a lack of confidence on the part of some
members of the public in Enforcement’s ability to protect investors.
Naked short selling has been a controversial practice for several years and, while
not illegal per se, abusive or manipulative naked short selling (e.g., intentionally
failing to borrow and deliver shares sold short in order to drive down the stock
price) violates the federal securities laws. The Commission initially responded to
concerns about abusive naked short selling in 2004 by adopting a short sale
regulation, Regulation SHO, that included provisions specifically designed to
address naked short selling. 2 The recent financial crisis, including claims that
aggressive short selling played a role in the failure of Lehman Brothers in
September 2008, renewed the public’s concerns about naked short selling. From
July through October 2008, the Commission undertook a number of measures,
including emergency orders temporarily restricting short selling in the stock of
certain financial companies and adopting amendments to Regulation SHO, that



1
    Naked short selling involves a practice whereby short sellers of securities do not borrow
    securities in time to make delivery to the buyer within the standard three-day settlement period.
    See infra pp. 6-7 for additional explanation.
2
    See infra pp. 9-11 for additional discussion of Regulation SHO.

Practices Related to Naked Short Selling Complaints and Referrals                      March 18, 2009
Report No. 450
                                                    i
were designed to prevent abusive naked short selling and restore investor
confidence in the markets. 3
Because Enforcement does not have separate procedures and processes for
handling complaints about naked short selling, our audit examined Enforcement’s
general complaint receipt and processing procedures as they applied to the
receipt and referral of naked short selling complaints.


Objectives
The OIG received numerous complaints alleging that Enforcement failed to take
sufficient action regarding naked short selling. Many of these complaints
asserted that investors and companies lost billions of dollars because
Enforcement has not taken sufficient action against naked short selling practices.
In light of these complaints and based on our audit plan, we conducted an audit
to assess whether Enforcement:
      1. Established policies and guidelines that enabled Enforcement to respond
         appropriately to complaints and referrals, including those involving naked
         short selling; and
      2. Followed existing policies and procedures for responding to complaints
         and referrals, including those pertaining to naked short selling.
We also followed up on the status of pertinent findings and recommendations
contained in a prior OIG report, and we reviewed a Government Accountability
Office (GAO) report related to Enforcement’s policies and procedures for
complaints and referrals. 4 Additionally, we coordinated our audit efforts with the
GAO, which has an ongoing review of the implementation of the Commission’s
short sale regulation, Regulation SHO. Specifically, the GAO is studying the:
      1. Extent to which Regulation SHO has reduced the number of failures to
         deliver of stocks that might impact the market for these securities;
      2. SEC’s oversight of the clearing and settlement processes for securities
         trades, particularly for identifying and addressing failures to deliver; and

3
    See infra pp. 11-14 for additional discussion of these emergency orders and amendments.
4
    These reports are SEC OIG Audit No. 352, Enforcement Internet Program, January 13, 2003,
    and GAO-08-33, Securities and Exchange Commission: Opportunities Exist to Improve
    Oversight of Self-Regulatory Organizations, November 15, 2007. During the previous OIG
    audit, we were informed that Enforcement’s Office of Internet Enforcement was about to
    implement a database to track referrals of complaints for further investigation. During the
    current audit, however, we found that Enforcement is no longer using this database. See infra
    Finding 6. The prior GAO audit found that Enforcement’s system for receiving and tracking
    referrals from the Self-Regulatory Organizations (SRO) needed improvements and
    recommended enhancements that would facilitate the monitoring and analysis of trend
    information and case activities. Enforcement’s Office of Market Surveillance informed us that it
    has requested enhancements for the SRO referral tracking system that are pending. We found
    no prior GAO or OIG reports specifically related to processing naked short selling complaints.

Practices Related to Naked Short Selling Complaints and Referrals                     March 18, 2009
Report No. 450
                                                    ii
     3. Efforts made by the SEC and Self-Regulatory Organizations (SROs) to
        enforce compliance with Regulation SHO in connection with abusive short
        selling.

Results
Our audit disclosed that despite the tremendous amount of attention the practice
of naked short selling has generated in recent years, Enforcement has brought
very few enforcement actions based on conduct involving abusive or
manipulative naked short selling. We also found that Enforcement generally
received complaints, including naked short selling complaints, by one of three
methods:
     1. E-mail complaints received by the Enforcement Complaint Center (ECC)
        within the Office of Internet Enforcement (OIE);
     2. Complaints, Tips and Referrals (CTR) that are received by Headquarters
        or Regional Office Enforcement staff outside of normal complaints
        channels (i.e., the ECC); and
     3. Referral of complaints to Enforcement’s Office of Market Surveillance
        (OMS) by SROs, such as the Financial Industry Regulatory Authority
        (FINRA). 5
However, during the period of our review we found that few naked short selling
complaints were forwarded to Headquarters or Regional Office Enforcement staff
for further investigation. Of approximately 5,000 naked short selling complaints
received in the ECC between January 1, 2007 and June 1, 2008, only 123
(approximately 2.5 percent) were forwarded for further investigation. Moreover,
we found that these complaints were forwarded only because the complaint
subjects were involved in ongoing Enforcement investigations. None of the
forwarded complaints resulted in enforcement actions, though one of the
complaints referenced a pending enforcement action involving naked short
selling. Furthermore, only six of the approximately 1,900 complaints entered into
Enforcement’s CTR database during the period we examined, alleged naked
short selling. Based on the data available to us, these complaints led to no
enforcement actions. 6 Also, we were informed that none of the approximately
900 SRO referrals received by OMS between January 1, 2007 and June 1, 2008
involved naked short selling.
Our audit determined that Enforcement’s existing complaint receipt and
processing procedures hinder Enforcement’s ability to respond effectively to
naked short selling complaints and referrals. We found that the ECC’s written

5
    FINRA was formed in July 2007 as a result of the merger of regulatory arms of the National
    Association of Securities Dealers and the New York Stock Exchange (NYSE). See infra n.10
    for an explanation of the SROs.
6
    During the audit, we learned that Regional Offices have inconsistent approaches for entering
    data into the CTR database. See infra Finding 3.

Practices Related to Naked Short Selling Complaints and Referrals                   March 18, 2009
Report No. 450
                                                   iii
policies and procedures do not include specific triage 7 steps for naked short
selling complaints, while they do include procedures for the in-depth analysis of
several other categories of complaints, e.g., spam driven manipulations,
unregistered online offerings and insider trading. These procedures, we believe,
have the effect of naked short selling complaints being treated differently than
other types of complaints.
Moreover, the ECC’s policies and procedures expressly instruct staff, as a
general matter, not to forward for further investigation complaints based on data
obtained from “Level II” trading terminals. 8 Because many investor complaints of
naked short selling are based on information obtained from Level II trading
screens, no triage is performed on these complaints and they are automatically
not forwarded to Enforcement staff, unless they pertain to an existing
Enforcement matter. Our audit also disclosed a risk that naked short selling
complaints with potential merit may be eliminated from further consideration
during the initial complaint screening process because no supervisory review is
performed of the initial screening.
Enforcement maintains that naked short selling complaints are not being treated
differently than other types of complaints and that the naked short selling
complaints it receives generally do not provide sufficient information to warrant
pursuit of the complaint. Enforcement, therefore, states that it is reluctant to
expend additional resources to investigate such complaints and indicated that the
high volume of incoming complaints precludes supervisory review of the initial
screening of all e-mail complaints. (Enforcement has indicated, however, that it
is willing to perform supervisory sampling and review of complaints that are
eliminated at the initial screening stage.) Given the heightened public and
Commission focus on naked short selling and guidance provided to the public
leading them to believe these complaints will be taken seriously and
appropriately evaluated, we believe the ECC’s current policies and procedures
should be improved to ensure that naked short selling complaints are addressed
appropriately.
Our audit also disclosed that improvements are needed to the CTR process both
at Headquarters and the Regional Offices to ensure the appropriate handling of
incoming complaints, including those involving naked short selling. We found
that there is currently no uniform set of procedures for the receipt and processing
of CTRs and no division-level oversight of the CTR program. Presently, there
are two separate sets of procedures for processing CTRs, one for Headquarters
and one for the Regional Offices. In addition, some Regional Offices also have
their own written CTR procedures, while others have informal, unwritten CTR
7
    “Triage” is the process of research and analysis used by OIE staff to determine which investor
    complaints are likely to be of sufficient interest to Enforcement staff to warrant the opening of
    an informal inquiry or formal investigation. See infra pp. 3-4 for additional explanation.
8
    Level II data shows the best bid (buy) and ask (sell) prices and the number of shares available
    for every market maker and electronic communications network (ECN). GAO/GGD-00-61,
    Securities Operations: Day Trading Requires Continued Oversight, February 24, 2000.

Practices Related to Naked Short Selling Complaints and Referrals                      March 18, 2009
Report No. 450
                                                   iv
practices. We also found that Regional Office procedures are inconsistent as to
when and whether complaints are entered into the CTR database. The lack of
uniform procedures and Division-level oversight can lead to the inconsistent
treatment of complaints, including those involving naked short selling, depending
on where within the Commission the complaint is received.
Moreover, our audit found that neither the Headquarters nor the Regional Offices
are complying with the existing written CTR policies and procedures. We
reviewed 82 Headquarters CTR packages for the period from January 1, 2007 to
June 1, 2008, to test for compliance with the Headquarters CTR policies and
procedures. According to those procedures, a complaint package should include
the original complaint, a copy of the response sent to the complainant and a
completed CTR data form. The majority of the CTR packages we reviewed were
incomplete: Sixty-seven percent (55 of 82) were missing the response to the
complainant; forty percent (33 of 82) were missing the CTR data form; and ten
percent (8 of 82) were missing the original complaint itself. We also found that
one of these CTRs was not entered into the CTR database, and another CTR
was only partially entered. We learned during our audit that OIE does not follow
up with Enforcement staff to ensure the CTR package is complete, resulting in
OIE oftentimes lacking adequate documentation of a complaint.
In order to determine compliance with Regional Office CTR procedures, we sent
a questionnaire to all 11 Commission Regional Offices. Existing CTR policies
and procedures applicable to the Regional Offices require the performance of
monthly reviews of a Regional Office’s CTRs by supervisors at the Senior Officer
(SES-equivalent) level. The responses to our questionnaire revealed that, of the
11 Regional Offices, only five Regional Offices performed the required monthly
CTR reviews. Two Regional Offices performed the reviews on a less frequent
basis. Three Regional Offices did not perform the monthly reviews because
senior officials were involved with the CTRs throughout the process, or lower
level officials were considered to be responsible for CTR judgments. One
Regional Office (which was previously a District Office) forwarded its CTRs to
another Regional Office for review.
Our audit also found that Enforcement’s current automated complaint tracking
systems, primarily the ECC complaint mailbox and the CTR database, require
improvements to ensure the appropriate processing and tracking of complaints.
In addition, we learned during our audit that a database previously developed by
OIE to track the results of complaint referrals was no longer in use due to
technical difficulties encountered with the system. As a consequence, OIE has
no current ability to track electronically which types of complaints referred to
Enforcement staff result in the opening of an informal inquiry or a formal
investigation.




Practices Related to Naked Short Selling Complaints and Referrals    March 18, 2009
Report No. 450
                                                   v
Summary of Recommendations
Our audit determined that several improvements are needed to Enforcement’s
procedures for the receipt and processing of complaints, including those
pertaining to naked short selling.
Specifically, our audit determined that the ECC should revise its current written
policies and procedures to:
    1. Include in-depth triage analysis for naked short selling complaints, similar
       to the detailed triage steps currently specified for other types of
       complaints, such as those about spam-driven manipulations and insider
       trading; and
    2. Ensure that investor naked short selling complaints based on information
       obtained from certain types of less sophisticated computer terminals are
       given a proper level of scrutiny and referred for further investigation where
       appropriate.
The audit also found that the ECC should include naked short selling in the
categories of complaints listed on the Complaint Center page of the SEC’s public
website. In addition, we recommend that the ECC enhance its supervision of the
initial screening of complaints to ensure the appropriateness of these important
initial decisions about complaints.
Our audit further found that a number of improvements are needed to the
Enforcement’s CTR program, both at Headquarters and in the Regional Offices.
Specifically, the Division should develop uniform written policies and procedures
for the CTR program at Headquarters and the Regional Offices and should
designate an office or individual at Headquarters to oversee the program on a
nationwide basis. In addition, Enforcement should ensure that CTRs forwarded
to OIE contain complete complaint documentation and that Regional Office
senior officials perform monthly CTR reviews, as required by existing policies and
procedures.
Finally, our audit found that Enforcement should make improvements to its
existing information technology systems for the receipt and processing of
complaints, primarily the ECC complaint mailbox and the CTR database, to
increase their functionality and analytical capabilities. We are also
recommending that OIE update and resume its previously-developed complaint
referral tracking system, or develop a new system to track information concerning
the results of complaint referrals.
See the Findings and Recommendations section for a detailed discussion of the
audit’s findings and recommendations. A detailed list of our recommendations is
located in Appendix IV.




Practices Related to Naked Short Selling Complaints and Referrals       March 18, 2009
Report No. 450
                                                   vi
                              TABLE OF CONTENTS
Executive Summary ....................................................................................................... i

Table of Contents.........................................................................................................vii

Background................................................................................................................... 1

          Overview of the Division of Enforcement............................................................ 1
          Enforcement’s Complaint Process ..................................................................... 2
          The Enforcement Complaint Center…………………………………………… ...... 2
          Complaints, Tips and Referrals System ............................................................. 4
          Referrals from the Self-Regulatory Organizations.............................................. 6
          Concerns about Naked Short Selling and the Commission’s Response ........... 6
          Short Selling in General ..................................................................................... 6
          The Practice of Naked Short Selling .................................................................. 7
          Outside Concerns about the Abusive Effects of Naked Short Selling ................ 8
          The Commission’s Views on Naked Short Selling.............................................. 9
          Regulation SHO ................................................................................................. 9
          Recent Emergency Orders and Amendments to Regulation SHO ................... 11
          Enforcement Actions Against Manipulative Naked Short Selling...................... 14
          Receipt and Processing of Complaints about Naked Short Selling .................. 15

Objectives ................................................................................................................... 16

Findings and Recommendations................................................................................. 18

          Finding 1: The Enforcement Complaint Center’s Policies and Procedures
          Do Not Provide Specific Triage Steps for Naked Short Selling Complaints
          and Appear to Result in These Types of Complaints Not Being Forwarded
          for Further Investigation ................................................................................... 18
                        Recommendation 1..................................................................... 22
                        Recommendation 2..................................................................... 22
                        Recommendation 3..................................................................... 23

          Finding 2: The Enforcement Complaint Center Does Not Perform
          Supervisory Review of Its Initial Screening of Complaints ............................... 23
                       Recommendation 4..................................................................... 24




Practices Related to Naked Short Selling Complaints and Referrals                                      March 18, 2009
Report No. 450
                                                           vii
        Finding 3: Enforcement’s Procedures for Processing Complaints, Tips and
        Referrals Differ and There is Insufficient Division-Level Oversight of the
        CTR Program ................................................................................................... 25
                      Recommendation 5..................................................................... 26
                      Recommendation 6..................................................................... 27

        Finding 4: Headquarters and the Regional Offices Do Not Consistently
        Follow Existing Complaint, Tips and Referrals Processing Procedures ........... 27
        Testing of Headquarters CTR Procedures ....................................................... 27
        Questionnaires about Regional Office CTR Policies and Procedures.............. 28
                      Recommendation 7..................................................................... 28
                      Recommendation 8..................................................................... 28

        Finding 5: Enforcement’s Complaint Tracking Systems Need
        Improvement .................................................................................................... 29
        The ECC’s Mailbox Functions .......................................................................... 29
        CTR Database Capabilities .............................................................................. 30
                     Recommendation 9..................................................................... 30
                     Recommendation 10................................................................... 31

        Finding 6: The Office of Internet Enforcement Does Not Track the Results
        of Referrals of Complaints................................................................................ 31
                      Recommendation 11................................................................... 32

Appendices
     Appendix I:           Abbreviations and Acronyms...................................................... 33
     Appendix II:          Scope and Methodology............................................................. 34
     Appendix III:         Criteria........................................................................................ 36
     Appendix IV:          List of Recommendations .......................................................... 38
     Appendix V:           Management Comments............................................................ 40
     Appendix VI:          OIG Response to Management Comments ............................... 44




Practices Related to Naked Short Selling Complaints and Referrals                                   March 18, 2009
Report No. 450
                                                       viii
                    Background and Objectives

Background
Overview of the Division of Enforcement

The U.S. Securities and Exchange Commission’s (SEC or Commission) Division
of Enforcement (Enforcement) is responsible for overseeing the Commission’s
enforcement activities at the SEC’s Headquarters located in Washington, D.C.
and 11 Regional Offices located throughout the country. The Enforcement staff
conducts investigations into possible violations of the federal securities laws, and
prosecutes the Commission’s civil suits in the federal courts, as well as its
administrative proceedings before administrative law judges and the Commission
itself. 9
Enforcement receives information on potential securities law violations from a
variety of sources, including:
    •   Members of the public;
    •   Press articles;
    •   Self-Regulatory Organizations (SROs) 10 ; and
    •   Other Commission Divisions and Offices.
In addition, Enforcement’s Office of Market Surveillance (OMS) 11 proactively
conducts surveillance of the markets and develops leads to identify potential
securities law violations.



9
   About the Division of Enforcement, http://www.sec.gov/divisions/enforce/about.htm. In civil
   suits, the Commission seeks injunctions (orders prohibiting future violations), civil monetary
   penalties and the disgorgement of illegal profits. Id. The courts may also bar or suspend
   individuals from acting as corporate directors or officers. Id. The Commission can bring a
   variety of administrative proceedings seeking different types of remedies, including cease and
   desist orders, disgorgement and the payment of civil penalties, the revocation or suspension or
   registration, and bars or suspensions from employment. Id.
10
   An SRO is a membership-based organization that creates and enforces rules for its members
   based on the federal securities laws, and is the frontline in regulating broker-dealers. Division
   of Market Regulation: Key Points About Regulation SHO,
   http://www.sec.gov/spotlight/keyregshoissues.htm, April 11, 2005, at n.11. The SROs include,
   among others, the national securities exchanges and securities associations registered with the
   SEC, such as the Financial Industry Regulatory Authority (FINRA), which was formed in July
   2007 through a merger of the regulatory arms of the NYSE and the NASD. GAO-08-33,
   Securities and Exchange Commission: Opportunities Exist to Improve Oversight of Self-
   Regulatory Organizations, at 1. The SROs are responsible for conducting surveillance of the
   trading activity on their markets. Id. at 8.

Practices Related to Naked Short Selling Complaints and Referrals                    March 18, 2009
Report No. 450
                                                Page 1
Enforcement staff performs preliminary research to determine if further
investigation would be appropriate. This research generally includes reviewing
information in Enforcement databases for prior or current enforcement activity, as
well as sources such as LEXIS and SEC filings. Enforcement staff may also
research related news articles and stock trading information.
Based on this research, Enforcement staff at Headquarters and the Regional
Offices may open an informal inquiry, which is initially referred to as a “Matter
Under Inquiry,” or “MUI.” Generally, MUIs are approved at the Associate Director
level at Headquarters and at the Associate Regional Director level in the
Regional Offices. Enforcement staff may also recommend that the Commission
order a formal investigation into a matter. In addition, Enforcement refers
evidence of violations of the criminal laws to the Department of Justice for
prosecution.


Enforcement’s Complaint Process
The Enforcement Complaint Center. Enforcement receives the majority of
public complaints through its Enforcement Complaint Center (ECC). The ECC is
located within Enforcement’s Office of Internet Enforcement (OIE). 12 The ECC is
an important source of investigative leads for Enforcement, and complaints sent
to the ECC have led to criminal arrests, trading suspensions, temporary
restraining orders, as well as civil enforcement cases. 13 The ECC is staffed by
four members of the OIE, including three attorneys and a program analyst, who
screen incoming complaints and then forward them to Headquarters or Regional
Office Enforcement attorneys for further investigation.
The ECC receives complaints both through online complaint forms, available on
the SEC’s website at www.sec.gov/complaint.shtml (which the ECC staff receive
in e-mail form), and an electronic mail box accessible via the Internet e-mail
address, enforcement@sec.gov. 14 The Commission’s website instructs the
public to report a potential violation of the securities laws directly to
enforcement@sec.gov, and not to use this e-mail box for general comments or
questions. 15 The website also instructs the public to forward investment-related
spam e-mails to enforcement@sec.gov. 16 In addition, complaints may be


11
   OMS receives advisories (information on suspicious trading activity) and referrals of possible
   securities law violations from the SROs, which may lead to investigations and enforcement
   actions. Id. at 6.
12
   The OIE was created in 1998 as a specialized unit designed to combat securities fraud
   occurring over the Internet. SEC Press Release 98-69, SEC Creates Office of Internet
   Enforcement to Battle Online Securities Fraud, July 28, 1998,
   http://www.sec.gov/es/press/pressarchive/1998/98-69.txt.
13
   Memorandum Re: Enforcement Complaint Center/How To, September 17, 2007, at 1.
14
   Id.
15
   SEC Center for Complaints and Enforcement Tips, http://www.sec.gov/complaint.shtml.
16
   Id.

Practices Related to Naked Short Selling Complaints and Referrals                    March 18, 2009
Report No. 450
                                                Page 2
submitted to the SEC Complaint Center by fax or mail. 17 The SEC’s website also
informs potential complainants: “We thoroughly review and evaluate your
information so that we may refer to the appropriate SEC office.” 18 In addition,
potential complainants are informed that “[a]ttorneys in the Enforcement evaluate
information and tips concerning violations of the federal securities laws.” 19
According to ECC information available as of 2007, the ECC typically received
between 5,000 and 7,000 e-mail complaints per day. 20 The number of
complaints received in the ECC greatly increased beginning with the Enron
accounting scandal in the fall of 2001. 21 While the number of complaints per day
subsequently began to level off, the “fluctuations in complaint volume typically
depend on the SEC’s profile in the news.” 22 Based on information the Office of
Inspector General (OIG) obtained from Enforcement, we found that the ECC
received approximately 1.38 million complaints via e-mail from January 1, 2007
to June 1, 2008, which were handled by a staff of four persons.
After complaints are received in the ECC, they go through a three-step process.
First, an initial coordinator review is conducted on the morning of each business
day “to cull out a) extraneous e-mails not involving securities matters; and b)
large-scale spam (10, 20, 50 or more) involving pending investigations of which
the coordinator is aware.” 23 Also, at this initial stage, to the extent possible,
certain “consumer” matters, i.e., investors’ private disputes with brokers – are
sent to the Office of Investor Education and Advocacy (OIEA) for review. 24
Second, a second-level coordinator review is conducted on the remaining
complaints to determine if they:
     •   Relate to pending investigations;
     •   Describe conduct better handled by OIEA;
     •   Relate to situations more appropriately handled by other agencies; or
     •   Should be sent to state regulators. 25
Third, complaints that remain after the first and second level reviews are
forwarded to OIE staff every ten days to conduct a “triage.” 26 Triage is “the

17
   Id.
18
   Id.
19
   Id.
20
   Memorandum Re: Enforcement Complaint Center/How To, September 17, 2007, at 1.
21
   Id.
22
   Id. at 1 n.1.
23
   Id. at 3.
24
   OIEA is a separate office within the Commission that handles certain general questions about
   the securities laws, as sell as “complaints relating to financial professionals or a complainant’s
   personal financial matters.” SEC Center for Complaints and Enforcement Tips,
   http://www.sec.gov/complaint.shtml, at 2. OIEA also has an online complaint form for use by
   investors. See Investor Information, http://www.sec.gov/investor.shtml.
25
   Memorandum Re: Enforcement Complaint Center/How To, September 17, 2007, at 3.
26
   Id.

Practices Related to Naked Short Selling Complaints and Referrals                       March 18, 2009
Report No. 450
                                                Page 3
process of research and analysis used to determine if an incoming investor
complaint is likely to trigger sufficient staff interest to entail the opening of” a MUI
or formal investigation. 27 Essentially, “it is a series of steps designed to assess
what type of wrongdoing is being alleged, what the market impact of that
wrongdoing is, who may be involved in the conduct, and who the most
appropriate persons are to look into that conduct.”28
The triage process includes obtaining information pertinent to a complaint from a
variety of public and internal sources. OIE staff are provided with guidance on
the basic tools of triage generally and are instructed how to perform in-depth
analysis of specific types of complaints, such as spam-driven manipulations,
unregistered online offerings and insider trading. 29 If, after the triage process,
the OIE staff determines that a referral is warranted, he or she prepares a referral
memorandum forwarding the complaint to investigative staff located at
Headquarters or a Regional Office. 30 Under the ECC’s procedures, complaints
pertaining to existing Enforcement matters are always forwarded to the
Enforcement attorneys working on those matters. 31
Complaints, Tips and Referrals System. In addition to complaints received
through the ECC, Enforcement receives complaints that do not come through
normal complaint channels, such as the ECC. These include complaints
received by Headquarters or Regional Office staff from a member of the public
via letter, e-mail, telephone, walk-in, or otherwise. 32 These complaints are
referred to as complaints, tips and referrals or “CTRs.”
The Commission implemented the CTR system in 2005 to improve record-
keeping and follow-up for complaints. 33 CTRs received by Enforcement
Headquarters staff, as well as CTRs that Enforcement occasionally receives from
another Commission Division or Office, are collected in a CTR database
maintained by OIE staff. 34 Copies of CTR reports are also maintained within OIE
in certain Outlook folders that have been set aside for this purpose. 35 In addition,

27
   Memorandum Re: Review of ECC Triage Guidelines/Procedures, September 17, 2007, at 1.
28
   Id.
29
   Id. at 1-9.
30
   Memorandum Re: Enforcement Complaint Center/How To, September 17, 2007, at 11.
31
   Id. at 7.
32
   Home Office Procedures for Handling Complaints/Tips/Referrals (CTR’s), updated October 6,
   2005; Field Office Procedures for Handling Complaints/Tips/Referrals (CTR’s), updated
   September 1, 2005.
33
   According to Enforcement, the CTR computer database remains a “temporary” system that is
   being used until modifications are completed on a new replacement system that Enforcement
   anticipates launching. In addition, the Chairman recently announced that the Commission has
   enlisted a contractor to conduct a comprehensive review of internal procedures used to
   evaluate tips, complaints, and referrals for the entire agency. SEC Press Release No. 2009-44,
   SEC Revamping Process for Reviewing Whistleblower Complaints and Enforcement Tips,
   March 5, 2009, http://www.sec.gov/news/press/2009/2009-44.htm.
34
   Memorandum Re: Enforcement Complaint Center/How To, September 17, 2007, at 12. The
   Office of Information Technology developed this database for OIE in 2005.
35
   Id.

Practices Related to Naked Short Selling Complaints and Referrals                  March 18, 2009
Report No. 450
                                                Page 4
each Regional Office maintains its own complaint information on the CTR
database.
Enforcement has separate written procedures for CTRs received by
Headquarters staff and those received by Regional Office staff. Headquarters
staff are instructed to perform the review, research and analysis steps deemed
appropriate by their branch, and to forward the CTR to or consult with
supervisory staff as appropriate. 36 Staff are instructed to ensure that a response
is sent whenever the staff are not planning to contact the complainant for further
information. 37 The procedures also advise staff that if the CTR describes
potential violations of the federal securities laws remediable by enforcement
action, they should complete a CTR form and forward it to OIE. 38 The
procedures further provide guidance on certain types of CTRs that should be
sent expeditiously, e.g., whistleblower complaints, allegations made by the
directors, officers or counsel of public companies or accounting firms, credible,
documented allegations of material fraud on the securities markets, etc. 39
Finally, the procedures specify that certain types of matters should NOT be
forwarded to OIE, including consumer matters that should be forwarded to OIEA,
non-securities-related matters, etc. 40
The procedures for Regional Office CTRs state that each Regional Office has its
own procedures for handling CTRs and do not recommend “that those processes
be scrapped or significantly modified,” recognizing that many Regional Offices
have good systems already in place and experienced investor affairs specialists
on staff. 41 Hence, the Regional Office procedures do not provide for a specific
method by which CTRs should be referred to OIE. 42 Rather, they focus on
supervisory review, recognizing “that an initial decision as to what type of
complaint has enforcement implications often comes down to a matter of
judgment on the part of the person receiving the CTRs.” 43 According to the
procedures, “[t]his fact makes it imperative that there be a regular review by a
more senior staff member of the judgments being made by the recipients of a
CTR in terms of how it should be addressed….” 44


36
   Home Office Procedures for Handling Complaints/Tips/Referrals (CTR’s), updated October 6,
   2005, at 1.
37
   Id.
38
   Id.
39
   Id.
40
   Id. at 2.
41
   Field Office Procedures for Handling Complaints/Tips/Referrals (CTR’s), updated September 1,
   2005, at 2.
42
   The Regional Office CTR procedures do point out the particular importance of CTRs from
   employees of issuers and various financial services firms, outside attorneys or accountants or
   referrals from other local and federal law enforcement and regulatory organizations. Id. at 1.
   Further, similar to the Headquarters CTR procedures, the Regional Office CTR procedures
   advise staff of the types of complaints that are not Enforcement-related. Id.
43
   Id.
44
   Id.

Practices Related to Naked Short Selling Complaints and Referrals                  March 18, 2009
Report No. 450
                                                Page 5
The Regional Office CTR procedures also require that on a monthly basis, a
senior member of the Regional Office’s Enforcement staff review that month’s
CTRs for their office, “including the evaluation of the judgments made as to how
the matter would be handled and how timely the disposition of the matter was
implemented.” 45 The procedures further request that each Regional Office
designate a supervisor at the Senior Officer level to serve as the office’s contact
person on the CTR initiative and to be responsible for the monthly review of the
office’s CTRs. 46
Between January 1, 2007 and June 1, 2008, approximately 1,900 complaints
received by Enforcement Headquarters and Regional Office staff were entered
into the CTR database.
Referrals from the Self-Regulatory Organizations. Enforcement also receives
referrals from the SROs. The SROs send these referrals to Enforcement through
the automated SRO Market Referral System (SMRS), which is monitored by
OMS. Enforcement regards these referrals to be more reliable than complaints
received directly from the public because the referrals are based on
investigations conducted by SRO staff, who have access to state-of-the art
market monitoring resources. Based upon information obtained during our audit,
we determined that OMS received approximately 900 referrals from the SROs
between January 1, 2007 and June 1, 2008.


Concerns about Naked Short Selling and the Commission’s Response
Short Selling in General. The practice of short selling “involves a sale of a security
that the seller does not own or a sale which is consummated by the delivery of a
security borrowed by, or for the account of, the seller.” 47 A short seller believes that
the price of the stock will fall, or is seeking to hedge against potential price volatility in
securities he or she owns. 48 If the price of the stock falls, the short seller buys back
the stock at a lower price and makes a profit. 49 If the stock price rises, however, the
short seller will incur a loss. 50 In the typical short sale transaction, the seller borrows
stock from his or her brokerage firm and delivers the borrowed shares to the buyer




45
   Id. at 1-2.
46
   Id. at 2.
47
   Amendments to Regulation SHO, Interim final temporary rule, Release No. 34-58773, October
   14, 2008, at 5.
48
   Division of Market Regulation: Key Points About Regulation SHO, April 11, 2005,
   http://www.sec.gov/spotlight/keyregshoissues.htm, at 1.
49
   Id.
50
   Id.

Practices Related to Naked Short Selling Complaints and Referrals              March 18, 2009
Report No. 450
                                                Page 6
within the standard settlement period (currently three business days). 51

The Practice of Naked Short Selling. A “naked short sale” occurs when “the
seller does not borrow securities in time to make delivery to the buyer within the
standard three-day settlement period.” 52 “As a result, the seller fails to deliver
securities to the buyer when delivery is due (known as a ‘failure to deliver’ or
‘fail’).” 53 Failures to deliver may result from either short or long sales. 54 In
addition, failures to deliver may be caused by legitimate reasons, such as human
or mechanical errors or processing delays. 55 A fail may also result from naked
short selling, e.g., where a market maker who sells short thinly traded illiquid
stock in response to customer demand encounters difficulty in obtaining
securities at the time for delivery. 56
Naked short selling is not necessarily a violation of the federal securities laws or
the Commission’s rules. 57 According to guidance of the Division of Market
Regulation, now the Division of Trading and Markets (Trading and Markets), on
the Commission’s website regarding Regulation SHO, in certain circumstances,
naked short selling contributes to market liquidity. 58 Nonetheless, Trading and
Markets has recognized that abusive naked short selling can have negative
effects on the market, as fraudsters may use naked short selling to engage in
illegal market manipulation, e.g., by selling stock short and failing to deliver
shares at the time of settlement with the purpose of driving down the stock
price. 59 According to Trading and Markets, such manipulative activity would
violate various securities laws and regulations, including Rule 10b-5 promulgated
under the Securities Exchange Act of 1934. 60



51
   Investors must generally complete or settle their security transactions within three business
   days (known at T+3 or “trade date plus three days”). “T+3 means that when a trade occurs, the
   participants to the trade deliver and pay for the security at a clearing agency three business
   days after the trade is executed.” Amendments to Regulation SHO, Final rule, Release No. 34-
   58775, October 14, 2008, at 2 n.4. Commission Rule 15c6-1, 17 C.F.R. § 240.15c6-1, prohibits
   broker-dealers from effecting or entering into contracts for the purchase or sale of securities
   that provides for payment of funds and delivery of securities later than three business days
   after the date of the contract, unless otherwise expressly agreed to by the parties at the time of
   the transaction. Id.
52
   Division of Market Regulation: Key Points About Regulation SHO, April 11, 2005,at 2 (footnote
   omitted).
53
   Division of Market Regulation: Key Points About Regulation SHO, April 11, 2005, at 2 (footnote
   omitted).
54
   Id.
55
   Id.
56
   Id.
57
   Id.
58
   Id.
59
   Id. at 7-8.
60
   Id. at 8. See 17 C.F.R. § 240.10b-5. In addition, the Commission has recently adopted a
   naked short selling antifraud rule, Rule 10b-21, 17 C.F.R. § 240.10b-21. See infra pp. 13-14.

Practices Related to Naked Short Selling Complaints and Referrals                     March 18, 2009
Report No. 450
                                                Page 7
Outside Concerns about the Abusive Effects of Naked Short Selling. A
large number of individuals and entities have become concerned about the
abusive effects of naked short selling and the harm caused to the markets as a
result of that practice. In fact, there are a number of websites devoted to this
topic. 61 Some critics of naked short selling believes that this practice causes the
number of shares trading to exceed the number of shares outstanding, allowing
broker-dealers to trade shares that do not exist. 62 “Others believe that the United
States clearance and settlement system, and specifically National Securities
Clearing Corporation’s (NSCC) Continuous Net Settlement System (CNS),
produces ‘phantom’ or ‘counterfeit’ securities by accounting for fails to deliver.” 63
Some groups believe that people who buy these phantom or counterfeit shares
from naked short sellers are, in effect, involuntarily loaning the stock to the short
seller, and are also deprived of voting rights they would have if they possessed
the stock. 64
Many individuals and entities have complained that the SEC has not taken
sufficient action to enforce against naked short selling. 65 For example, former
SEC Chairman Harvey Pitt said the SEC has not done enough to curb naked
short selling practices, but did praise the SEC for recent constructive steps.
Speaking at a “Coalition Against Market Manipulation” event, former Chairman
Pitt stated: “Naked shorting is a situation in which someone is gambling but they
have no skin in the game. They are not required to make any effort to deliver the
shares.” 66 Former Chairman Pitt has also stated that the “agency must make it
extremely clear that any naked short selling is illegal and it has to remove the
ambiguities so the rules are very clear.” 67


61
   See, e.g., http://www.investigatethesec.com; http://www.deepcapture.com;
   http://www.stopmarketmanipulation.org.
62
   Division of Market Regulation: Responses to Frequently Asked Questions Concerning
   Regulation SHO, http://www.sec.gov/divisions/marketreg/mrfaqregsho1204.htm, Answer to
   Question 7.1, at 20.
63
   Id. NSCC, a subsidiary of Depository Trust and Clearing Corporation (DTCC), see infra n.70,
   provides a variety of clearing, settlement, risk management and related services for virtually all
   broker-to-broker trades. http://www/dtcc.com/about/subs/nscc.php. NSCC “generally clears
   and settles trades on a T+3 basis.” Id.
64
   Comments submitted by Washington Legal Foundation, Re: File No S7-08-08, Release No. 34-
   57511, Proposed “Naked” Short Selling Anti-Fraud Rule, May 20, 2008, at 4.
65
   See, e.g., Comments submitted by the Washington Legal Foundation, File No. S7-08-08;
   Release No. 34-57511, Proposed “Naked” Short Selling Anti-Fraud Rule, May 20, 2008, at 3
   (claiming that “the SEC has been woefully remiss in its duties to enforce the law”).
66
   SEC urged to do more to curb naked short selling, by Rachelle Younglai, December 9, 2008,
   Reuters, http://www.reuters.com/article/marketsNews/idUSN0926750020081209. It should be
   noted that former Chairman Pitt is currently the Chief Executive Officer of Kalorama Partners,
   LLC, a global business consulting firm. Mr. Pitt has also launched a website,
   http://www.regsho.com. The website offers an automated Regulation SHO compliance tool for
   a monthly fee of $995.
67
   Obama adviser: Short selling must be disclosed, by Ronald D. Orol, Market Watch,
   http://www.marketwatch.com/news/story/Short-selling-must-publicly-
   disclosed/story.aspx?guid=%7B4269F7F7-FB08-4766-A5DD-53453B95A17A%7D.

Practices Related to Naked Short Selling Complaints and Referrals                     March 18, 2009
Report No. 450
                                                Page 8
The Commission’s Views on Naked Short Selling. The Commission has
repeatedly recognized that naked short selling can depress stock prices and may
have harmful effects on the market. For example, in initially proposing its short
sale regulation, Regulation SHO, the Commission specifically stated:
        Naked short selling can have a number of negative effects on the
        market, particularly when the fails to deliver persist for an extended
        period of time and result in a significantly large unfilled delivery
        obligation at the clearing agency where trades are settled. At
        times, the amount of fails to deliver may be greater than the total
        public float. In effect the naked short seller unilaterally converts a
        securities contract (which should settle in three days after the trade
        date) into an undated futures-type contract, which the buyer might
        not have agreed to or that would have been priced differently. The
        seller’s failure to deliver securities may also adversely affect certain
        rights of the buyer, such as the right to vote. More significantly,
        naked short sellers enjoy greater leverage than if they were
        required to borrow securities and deliver within a reasonable time
        period, and they may use this additional leverage to engage in
        trading activities that deliberately depress the price of a security. 68
According to guidance provided by Trading and Markets, however, “[n]aked short
selling has no effect on an issuer’s total shares outstanding. There is significant
confusion relating to the fact that the aggregate number of positions reflected in
customer accounts at broker-dealers may in fact be greater than the number of
securities issued and outstanding.” 69
Similarly, Trading and Markets has stated that the U.S. clearance and settlement
system, and specifically NSCC’s CNS system, does not create counterfeit shares.
According to Trading and Markets, CNS is essentially an accounting system that
indicates delivery and receives obligations among its members, but these obligations
do not reflect ownership positions until the delivery of shares are actually made, as
reflected in the records of The Depository Trust Company (DTC). 70

Regulation SHO. The Commission adopted regulation SHO “to update short
sale regulation in light of the numerous market developments since short sale

68
   Short Sales, Proposed rule, Release No. 34-48709, October 29, 2003, at 6-7.
69
   Division of Market Regulation: Responses to Frequently Asked Questions Concerning
   Regulation SHO, Answer to Question 7.1, at 20.
70
   Id. The DTC, another subsidiary of DTCC, was established in 1973 “to reduce costs and
   provide clearing and settlement efficiencies by immobilizing securities and making ‘book-entry’
   changes to ownership of securities.” http://www.dtcc.com/about/subs/dtc.php. In 2006, The
   DTC settled transactions worth almost $445 trillion, and processed over 290 million book-entry
   deliveries. Id. DTCC, which through its subsidiaries provides clearing, settlement and
   information services for various types of securities, has been criticized for its approach to naked
   short selling. DTCC, however, has disagreed with the criticisms. See DTCC Press Release,
   DTC Responds to the Wall Street Journal Article, “Blame the ‘Stock Vault?’”,
   http://www.dtcc.com/news/press/releases/2007/wsj_response.php.

Practices Related to Naked Short Selling Complaints and Referrals                      March 18, 2009
Report No. 450
                                                Page 9
regulation was first adopted in 1938.” 71 Regulation SHO became effective on
September 7, 2004, and compliance with the regulation began on January 3,
2005. 72 Regulation SHO established a new regulatory framework governing the
short selling of securities, including naked short selling. 73 Among other things,
Regulation SHO established “uniform locate and delivery requirements in order
to address problems associated with failures to deliver, including potentially
abusive ‘naked’ short selling . . .”, and created uniform marking requirements for
sales of equity securities. 74 Under Rule 203 of Regulation SHO, a broker-dealer,
prior to effecting a short sale in an equity security, must locate securities
available for borrowing in order to be able to deliver the securities on the
transaction settlement date. 75 Rule 203 also imposed additional requirements on
broker-dealers for securities in which a substantial amount of failures to deliver
occurred. 76
Under Rule 203(b)(3) of Regulation SHO, a “threshold security” is an equity
security that has an aggregate fail to deliver position for:
        •    Five consecutive settlement days at a registered clearing
             agency (e.g., the NSCC);
        •    Totaling 10,000 shares or more; and
        •    Equal to at least 0.5 percent of the issuer’s total shares
             outstanding. 77

Regulation SHO requires that each SRO provide a threshold securities list for those
securities for which the SRO is the primary market. 78 In addition, Regulation SHO
requires that broker-dealers close out all failures to deliver that exist in threshold
securities for 13 consecutive settlement days by purchasing securities of like kind
and quantity. 79 Until the position is closed out, the broker-dealer, and any broker-
dealer for which it clears transactions, may not effect further short sales in that
threshold security without borrowing or entering into a bona fide agreement to




71
   Division of Market Regulation: Key Points About Regulation SHO, April 11, 2005, at 2. See
   Short Sales, Final rule; Interpretation, Release No. 34-50103, July 28, 2004.
72
   Division of Market Regulation: Responses to Frequently Asked Questions Concerning
   Regulation SHO, at 1.
73
   Id. at 2.
74
   Id.
75
   Id.; see 17 C.F.R. § 242.203.
76
   Division of Market Regulation: Responses to Frequently Asked Questions Concerning
   Regulation SHO, http, at 2.
77
   Division of Market Regulation: Key Points About Regulation SHO, April 11, 2005, at 3.
78
   Id. at 4.
79
   Id. at 5.

Practices Related to Naked Short Selling Complaints and Referrals                March 18, 2009
Report No. 450
                                                Page 10
borrow the security. 80

Under Regulation SHO, threshold securities only include issuers that are registered
or are required to file reports with the Commission. 81 However, non-reporting
securities are covered by SRO rules. According to Enforcement, NASD (now
FINRA) Rule 3210 provides that non-reporting threshold securities shall be closed
out in the same manner as reporting securities would be closed out under
Regulation SHO. 82 Under this Rule, non-reporting threshold securities are defined
as securities with aggregate fails to deliver for five consecutive settlement days of
10,000 or more shares that are valued at $50,000 or more. 83

In adopting Regulation SHO, the Commission stated its belief that the threshold
level “characterizes situations where the ratio of unfulfilled delivery obligations at
the clearing agency at which trades are settled represents a significant number of
shares relative to the company’s total shares outstanding.” 84 According to the
Commission, “such circumstances warrant action designed to address potential
negative effects,” and “Rule 203(b)(3) is intended to address potential abuses
that may occur with large, extended fails to deliver.” 85
According to Trading and Markets, “[a] security’s appearance on a threshold list
does not necessarily mean that any improper activity has occurred or is
occurring”. 86 At the same time, “[w]hether or not a security is a threshold security
does not affect the Commission’s ability to prosecute manipulative or fraudulent
activity that may have occurred before or after adoption of Regulation SHO.” 87

Recent Emergency Orders and Amendments to Regulation SHO. In
response to the financial crisis that began with the collapse of The Bear Stearns

80
   Id. As originally enacted, Regulation SHO contained two exceptions to its mandatory close-out
   requirement: a grandfather provision and an options market maker exception. The grandfather
   provision, which exempted positions that were established before a security became a
   threshold security from the requirement to close-out fail to deliver positions that remained for 13
   consecutive settlement days, was eliminated by a rule amendment that was adopted effective
   October 15, 2007. Amendments to Regulation SHO, Release No. 34-56212, August 7, 2007.
   The options market maker exception, “which excepted any fail to deliver in a threshold security
   resulting from short sales effected by a registered options market maker to establish or
   maintain a hedge on options positions that were created before the underlying security became
   a threshold security,” was eliminated temporarily effective September 17, 2008, and then
   permanently effective October 17, 2008. See infra p. 13.
81
   Division of Market Regulation: Key Points About Regulation SHO, April 11, 2005, at 3.
82
   SROs; FINRA; Notice of Filing and Immediate Effectiveness of Proposed Rule Change
   Relating to Amendments to NASD Rule 3210 in Light of Amendments to the SEC Regulation
   SHO Delivery Requirements, Release No. 34-56682, October 22, 2007.
83
   SROs; FINRA. Notice of Filing of Proposed Rule Change and Amendments Nos. 1 and 2
   thereto Relating to Short Sale Delivery Requirements, Release No. 34-52752, November 8,
   2005.
84
   Short Sales, Final Rule; Interpretation, Release No. 34-50103, July 28, 2004, at 15.
85
   Id.
86
   Division of Market Regulation: Key Points About Regulation SHO, April 11, 2005, at 5.
87
   Id.

Practices Related to Naked Short Selling Complaints and Referrals                      March 18, 2009
Report No. 450
                                                Page 11
Companies Inc. in March 2008, the Commission instituted a number of
emergency orders and amendments to Regulation SHO. Initially, on July 15,
2008, the Commission issued a temporary emergency order providing that no
short sales could be effected in the securities of certain financial firms unless the
seller or its agent has borrowed or arranged to borrow the security or otherwise
has the security available to borrow in its inventory prior to effecting the short
sale and delivers the security on settlement date. 88 In imposing the initial
emergency order, the Commission recognized that false rumors can lead to a
loss of confidence in the markets, which in turn can lead to panic selling and may
be further exacerbated by naked short selling. 89
Subsequent to the initial emergency order in July 2008, the Commission
continued to be “concerned about the possible unnecessary or artificial price
movements based on unfounded rumors regarding the stability of financial
institutions and other issuers exacerbated by ‘naked’ short selling.” 90 The
Commission’s concerns, however, were no longer limited to the financial
institutions that were the subject of the July Emergency Order. 91 In addition, the
Commission became “concerned that some persons may take advantage of
issuers that have become temporarily weakened by current market conditions to
engage in inappropriate short selling in the securities of such issuers.” 92
As a consequence, on September 17, 2008, the Commission took a number of
coordinated actions designed to strengthen investor protections against “naked”
short selling.” 93 According to former SEC Chairman Christopher Cox, “[t]hese
several actions today make it crystal clear that the SEC has zero tolerance for
abusive naked short selling. The Enforcement Division, the Office of Compliance
Inspections and Examinations and the Division of Trading and Markets will now
have [additional] weapons in their arsenal in their continuing battle to stop
unlawful manipulation.” 94 As part of the emergency measures taken on
September 17, 2008, the Commission imposed “enhanced delivery requirements
on sales of all equity securities, by adding and making immediately effective a
temporary rule to Regulation SHO, Rule 204T.” 95 The temporary rule imposed “a
penalty on any participant of a registered clearing agency, and any broker-dealer




88
   Securities Exchange Act Release No. 58166, July 15, 2008. The initial emergency order
   became effective on July 21, 2008, and was subsequently extended until August 12, 2008.
   See Securities Exchange Act Release No. 58248, July 29, 2008.
89
   Securities Exchange Act Release No. 58166, July 15, 2008, at 1.
90
   Securities Exchange Act Release No. 58572, September 17, 2008, at 1.
91
   Id.
92
   Id.
93
   SEC Issues New Rules to Protect Investors Against Naked Short Selling Abuses, Press
   Release 2008-404, September 17, 2008, www.sec.gov/news/press/2008/2008-204.htm, at 1.
94
   Id.
95
   Securities Exchange Act Release No. 58572, September 17, 2008, at 2. See 17 C.F.R. §
   242.204T.

Practices Related to Naked Short Selling Complaints and Referrals              March 18, 2009
Report No. 450
                                                Page 12
from which it receives trades for clearance and settlement, for having a fail to
deliver position at a registered clearing agency in any equity security.” 96
In addition, in its September 17, 2008 Emergency Order, the Commission
concluded that it was necessary to make immediately effective amendments to
“eliminate the options market maker exception from Regulation SHO’s close-out
requirement.” 97 The Commission made immediately effective a naked short
selling antifraud rule, Rule 10b-21. 98 In another emergency order entered on
September 18, 2008, the Commission temporarily prohibited any short selling in
the publicly traded shares of certain financial firms. 99
Subsequently, on October 14, 2008, the Commission adopted final rule
amendments that eliminated the options market maker exception to the close-out
requirement of Regulation SHO. 100 As a result of these amendments, “fails to
deliver in threshold securities that result from hedging activities by options market
makers will no longer be excepted from Regulation SHO’s close-out
requirement.” 101 In adopting the rule amendments, the Commission observed:
“[A]s we have stated on several prior occasions, we are concerned about the
negative effect that fails to deliver may have on the markets and
shareholders.” 102 In addition, the Commission pointed to the concerns
repeatedly expressed by issuers and investors “about fails to deliver in
connection with manipulative ‘naked’ selling.” 103 The Commission then
recognized that “[t]o the extent that fails to deliver might be part of manipulative
‘naked’ short selling, which could be used as a tool to drive down a company’s
stock price, such fails to deliver may undermine the confidence of investors.” 104
Also on October 14, 2008, the Commission adopted a final “antifraud rule, Rule
10b-21, aimed at short sellers, including broker-dealers acting for their own
accounts, who deceive specified persons, such as a broker or dealer, about their
intention or ability to deliver securities in time for settlement and that fail to deliver
the securities by settlement date.” 105 The Commission recognized that although

96
   Securities Exchange Act Release No. 58572, September 17, 2008, at 2 (footnotes omitted).
   According to Enforcement, Rule 204T covers all equity securities regardless of whether they
   are reporting or non-reporting (as the threshold securities concept no longer applies under Rule
   204T); hence, SRO rules are not used in conjunction with Rule 204T.
97
   Id. at 2-3.
98
   Id. at 3. See 17 C.F.R. § 240.10b-21.
99
   Securities Exchange Act Release No. 34-58592, September 18, 2008. Yet another emergency
   order issued on September 18, 2008 temporarily imposed certain reporting requirements
   concerning daily short sale of securities by institutional investment managers. See Securities
   Exchange Act Release No. 34-58591, September 18, 2008.
100
    Amendments to Regulation SHO, Final rule, Release No. 34-58775, October 14, 2008.
101
    Id. at 1.
102
    Id. at 4. Specifically, for example, the Commission recognized that “fails to deliver may
   deprive shareholders of the benefits of ownership, such as voting and lending.” Id.
103
    Id.
104
    Id. at 5.
105
     “Naked” Short Selling Antifraud Rule, Final rule, Release No. 34-58774, October 14, 2008, at
   2.

Practices Related to Naked Short Selling Complaints and Referrals                   March 18, 2009
Report No. 450
                                                Page 13
abusive naked short selling as part of a manipulative scheme is always illegal
under the general antifraud provisions of the federal securities laws, Rule 10b-21
will further evidence the liability of persons who deceive others about their
intention or ability to deliver securities in time for settlement. 106 Also, on October
14, 2008, the Commission adopted an interim final temporary rule enhancing the
delivery requirements for sales of all equity securities. 107 The Commission
solicited comments on all aspects of Rule 204T, which is effective until July 31,
2009. 108
Enforcement Actions Against Manipulative Naked Short Selling.
Historically, Enforcement has brought few enforcement actions based on
manipulative or abusive naked short selling. In one settled civil action brought in
2003, the Commission alleged that a money management firm and its president
engaged in a manipulative short selling scheme in the stock of Sedona
Corporation. 109 The Commission alleged that the defendants profited from
engaging in a massive naked short selling scheme that flooded the market with
Sedona stock and depressed its price. 110 The defendants in that action
consented to the entry of an injunction for violations of Section 17(a) of the
Securities Act of 1933 and Section 10(b) of the Securities Exchange Act of 1934,
and Rule 10b-5 thereunder. 111 The defendants also agreed to pay a civil penalty
of $1 million. 112
The Commission also settled charges against a hedge fund adviser, its chief
executive officer and two firm employees for engaging in improper short sales
transactions, including representing to broker-dealers executing trades on their
behalf that they had located stock to borrow, when they had not in fact done
so. 113 In an administrative proceeding, the Commission censured the
respondents, ordered that the firm cease and desist from future violations of
Section 17(a)(2) of the Securities Act of 1933, imposed civil penalties of

106
     Id.
107
     Amendments to Regulation SHO; Interim final temporary rule; request for comments, Release
   No. 34-58773, October 14, 2008.
108
     Id. at 1, 3.
109
     See Litigation Release No. 18003, February 27, 2003, SEC v. Rhino Advisors, Inc., and
   Thomas Badian, Civ. Action No. 03 civ 1310 (RO)(Southern District of New York).
110
     Short Sales, Proposed Rule, Release No. 34-48709, October 28, 2003, at n.31.
111
     Ligation Release No. 18003, February 27, 2003, at 1. Section 17(a) of the Securities Act of
   1933, 15 U.S.C. § 77q, prohibits the use of interstate commerce for the purpose of fraud or
   deceit in the offer or sale of any security or any security-based swap agreement. Section 10(b)
   of the Securities Exchange Act of 1934, 15 U.S.C. § 78j(b), makes it unlawful to use interstate
   commerce to use or employ a manipulative or deceptive device or contrivance in contravention
   of the Commission’s rules in connection with the purchase or sale of a security.
112
     Id. The SEC has a pending related action pending in the United States District Court for the
   Southern District of New York as a result of the defendants’ failure to abide by the Court’s
   previous judgment. See SEC v. Andreas Badian, et al., Civil Action No. 06 CV 2621 (S.D.N.Y,
   filed April 4, 2006).
113
     SEC Charges New York Hedge Fund Adviser with Short Sale Violations in Connection with
   Hibernia-Capital One Merger, Press Release 2007-116, October 10, 2007,
   http://www.sec.gov/news/press/2007/2007-216.htm.

Practices Related to Naked Short Selling Complaints and Referrals                   March 18, 2009
Report No. 450
                                                Page 14
$840,000, and ordered disgorgement of approximately $6.7 million, plus over
$730,000 in prejudgment interest. 114 In another matter, the Commission brought
and settled charges against a unit of Goldman Sachs for allowing customers to
engage in an illegal short selling scheme that allegedly included naked short
selling. 115
In a few other matters, the Commission has brought and settled cases in which
naked short sale activity was part of the conduct charged in connection with
illegal trading schemes designed to evade the registration requirements of the
Federal securities laws in connection with securities offerings involving Private
Investments in Pubic Equity (PIPE). 116

The Commission has recently “announced a sweeping expansion of its ongoing
investigation into possible market manipulation in the securities of certain
financial institutions.” 117 The Commission has also approved a formal order of
investigation that will allow SEC Enforcement staff to obtain additional
documents and testimony by subpoena and is working jointly with NYSE
Regulation and FINRA. 118 According to the Enforcement Director: “Abusive
short selling, market manipulation and false rumor mongering for profit by any
entity cuts to the heart of investor confidence in our markets. Such behavior will
not be tolerated. We will root it out, expose it, and subject the guilty parties to the
full force of the law.” 119


Receipt and Processing of Complaints about Naked Short Selling
Of the approximately 1.38 million email complaints the ECC received between
January 1, 2007 and June 1, 2008, approximately 5,000 of these complaints

114
    In the Matter of Sandell Asset Management Corp., et al., Securities Act Release No. 8857,
   October 10, 2007.
115
    SEC and NYSE Settle Enforcement Actions Against Goldman Sachs Unit for Role in
   Customers’ Illegal Trading Scheme, Press Release 2007-41, March 14, 2007,
   www.sec.gov/news/press/2007/2007-41.htm.; In the Matter of Goldman Sachs Execution &
   Clearing, L.P., Securities Exchange Act Release No. 55465, March 14, 2007.
116
    See, e.g., Litigation Release No. 19956, January 4, 2007, SEC v. Joseph Spiegel, Civil Action
   No. 1:07CV00008 (RCL)(D.D.C.); In the Matter of Spinner Asset Management, LLC, et al.,
   Securities Act Release No. 8763, December 20, 2006; Litigation Release No. 19607, March 14,
   2006, SEC v. Langley Partners, L.P., et al., Civil Action No. 1:06CV00467 (JDB)(D.D.C). See
   also Litigation Release No. 19942, December 12, 2006, SEC v. Edwin Buchanan Lyon, et al.,
   Civil Action No. 06 CV 14338 (S.D.N.Y.) for a pending case involving a PIPES trading scheme
   that included alleged naked short selling. A “PIPE” involves the selling of publicly traded
   common shares, or some form of preferred stock or convertible security, to private investors.
   The PIPE offering may consist of shares registered with the SEC or may be completed as an
   unregistered private placement capital. See PIPE Offerings,
   http://www.sec.gov/answers/pipeofferings.htm.
117
    SEC Press Release No. 2008-214, SEC Expands Sweeping Investigations of Market
   Manipulation, September 19, 2008, http://www.sec.gov/news/press/2008/2008-214.htm.
118
    Id.
119
    Id.

Practices Related to Naked Short Selling Complaints and Referrals                  March 18, 2009
Report No. 450
                                                Page 15
pertained to naked short selling. Based on our review, the naked short selling
complaints received by Enforcement generally fell into three categories: (1)
general statements about the impact of naked short selling on companies and
the markets; (2) complaints about the perceived lack of action by the
Commission, and in particular Enforcement, to combat naked short selling; and
(3) specific complaints about naked short selling in the shares of specific
companies. 120 The complaints about naked shorting of the shares of specific
companies often included information about the securities’ decline in price after
high trading volume, as well as the securities’ appearance on the threshold list.
Enforcement does not have any separate procedures that are specifically tailored
to complaints involving naked short selling, but processes these complaints
through the procedures generally applicable to complaints received in the ECC or
to CTRs. Of the approximately 5,000 naked short selling complaints received in
the ECC during the period reviewed, only 123 were forwarded to Enforcement
staff for further investigation. We found that no Enforcement actions were
brought based on these naked short selling complaints, although one of the
referred complaints referenced a pending Enforcement action involving naked
short selling. 121
In addition, we found that of the approximately 1,900 complaints that were
entered into the CTR database during the period from January 1, 2007 through
June 1, 2008, only six of these complaints alleged naked short selling. We also
found that no Enforcement actions were brought based on these complaints.
Based on information provided by the OMS, none of the approximately 900
referrals received from the SROs during the period from January 1, 2007 to June
1, 2008 involved naked short selling.


Objectives
Objectives. The OIG has received numerous complaints alleging that
Enforcement has failed to take sufficient action regarding naked short selling.
Many of these complaints asserted that investors and companies lost billions of
dollars because Enforcement has not taken sufficient action against naked short
selling practices.
In light of these complaints and based on our audit plan, we conducted an audit
to assess whether Enforcement:


120
    The 5,000 complaints included multiple complaints sent by the same individuals about the
   same securities.
121
    This complaint expressed concerns about the lack of oversight in the daily trading of the stock
   of Sedona Corporation and referenced the two actions that had been brought in the United
   States District Court for the Southern District of New York alleging a massive naked short
   selling scheme involving Sedona stock. See supra p. 14 and n.112.

Practices Related to Naked Short Selling Complaints and Referrals                    March 18, 2009
Report No. 450
                                                Page 16
             •   Established policies and guidelines that enabled Enforcement to
                 respond appropriately to complaints and referrals, including those
                 involving naked short selling; and
             •   Followed existing policies and procedures for responding to
                 complaints and referrals, including those pertaining to naked short
                 selling.
We also conducted follow-up on the status of pertinent findings and
recommendations contained in a prior OIG report. We further reviewed a
Government Accountability Office (GAO) report related to Enforcement’s policies
and procedures for complaints and referrals. 122 Additionally, we coordinated our
audit efforts with GAO, which has an ongoing review of the implementation of the
Commission’s short sale regulation, Regulation SHO. Specifically, GAO is
studying the:
      1. Extent to which Regulation SHO has reduced the number of failures to
         deliver of stocks that might impact the market for these securities;
      2. SEC’s oversight of the clearing and settlement processes for securities
         trades, particularly for identifying and addressing failures to deliver; and
      3. Efforts made by the SEC and Self-Regulatory Organizations to enforce
         compliance with Regulation SHO in connection with abusive short selling.




122
    These reports are SEC OIG Audit No. 352, Enforcement Internet Program, January 13, 2003, and GAO-
  08-33, Securities and Exchange Commission: Opportunities Exist to Improve Oversight of Self-
  Regulatory Organizations, November 15, 2007. During the previous OIG audit, we were informed that the
  Office of Internet Enforcement was about to implement a database to track referrals of complaints for
  further investigations. During the current audit, however, we found that Enforcement is no longer using
  this database. See infra Finding 6. The prior GAO audit found that Enforcement’s system for receiving
  and tracking referrals from the Self-Regulatory Organizations needed improvements and recommended
  enhancements that would facilitate the monitoring and analysis of trend information and case activities.
  Enforcement’s Office of Market Surveillance informed us that it has requested enhancements for the SRO
  referral tracking system that are pending. We found no prior GAO or OIG reports specifically related to
  processing naked short selling complaints.

Practices Related to Naked Short Selling Complaints and Referrals                          March 18, 2009
Report No. 450
                                                Page 17
              Findings and Recommendations
Finding 1: The Enforcement Complaint
Center’s Policies and Procedures Do Not
Provide Specific Triage Steps for Naked Short
Selling Complaints and Appear to Result in
These Types of Complaints Not Being
Forwarded for Further Investigation.
                 The ECC’s written policies and procedures do not
                 include specific triage steps for naked short selling
                 complaints. Moreover, many naked short selling
                 complaints fall into a category of complaints that the
                 ECC’s written procedures describe as “problematic.”
                 The written procedures, therefore, advise that these
                 complaints should generally not be referred for
                 investigation. In addition, the ECC does not have an
                 online complaint form that is specifically designed for
                 naked short selling complaints.

Our review of the ECC’s written complaint processing procedures indicated that
they do not provide specific triage steps for the in-depth analysis of naked short
selling complaints. In contrast, however, the ECC’s triage guidelines provide
steps for in-depth analysis of other specific types of complaints, such as spam-
driven manipulations, unregistered online offering, insider trading,
whistleblowers/ accounting or other fraud, and advance free frauds and offshore
boiler rooms. 123
In fact, cautionary language in the ECC’s complaint handling procedures appears
to result in naked short selling complaints not being forwarded to Enforcement
staff for further investigation. Those procedures state, in part, as follows:
        Each day, we get a significant number of complaints from
        individuals who claim they, from observing price/volume information
        found on “Level II” trading terminals,[ 124 ] have found evidence of
        market manipulation or other suspect behavior by broker-dealers,
        market makers or other market participants. These complaints are

123
   Memorandum Re: Review of ECC Triage Guidelines/Procedures, September 17, 2007, at 6-9.
124
   According to information OIE obtained from OMS, “[c]asual observers of the market using
  Level II terminals typically obtain only a snapshot of a particular segment of market activity and
  lack the breadth of vision to really make substantive evaluations of market conduct.” E-mail
  dated October 17, 2003, Subject: Important Guidelines Re: Investor “Level II” Complaints.

Practices Related to Naked Short Selling Complaints and Referrals                     March 18, 2009
Report No. 450
                                                Page 18
        problematic. While malfeasance by market participants is a serious
        matter, we have conferred extensively with [OMS] to determine how
        these should be handled. In general, OMS feels that the average
        Level II user lacks a sufficiently broad view of the market to make
        the kinds of general allegations regarding manipulation more
        appropriate to FINRA, the regulatory body with primary
        responsibility for market surveillance. 125
The procedures advise that complaints based on Level II data should not be
referred for further investigation, although they do provide that complaints that
describe “certain very specific market practices” should be sent to OMS
supervisory staff. 126 Otherwise, specific allegations against specific market
makers should be passed on to certain mailboxes within the Office of
Compliance Inspections and Examinations, “which factors these complaints into
its consideration of broker-dealer examinations.” 127
During our audit, ECC staff informed us that the typical naked short selling
investor complaint is based on data obtained from a Level II trading terminal.
The ECC staff further explained that they were troubled by these complaints and
consulted with OMS to make sure they were handling them properly. According
to ECC staff, OMS advised the ECC that while complaints alleging naked short
selling, as well as all manners of short-selling conspiracies, should be taken
seriously, such activity generally cannot be observed from a Level II computer
screen, which does not provide information about delivery of shares or the
covering of short positions. 128 As a consequence, OMS advised the ECC that
naked short selling complaints based upon data from Level II terminals typically
lacked a specific, substantial factual foundation and were unlikely to lead to a
successful investigation. 129
However, the delivery and settlement information that Enforcement claims is
missing from many investor naked short selling complaints is frequently
proprietary information that is not available to an individual complainant or the
general public. Oftentimes, a member of the public can only point to the fact that
shares are on a threshold list, which in itself is not probative of naked short
selling. We observed that the Commission’s public webpage for soliciting
complaints from the public does not currently specifically list naked short selling
under the categories of conduct that best describe a complaint. 130 By adding a

125
    Memorandum Re: Enforcement Complaint Center/How To, September 17, 2007, at 6. See
   also Memorandum Re: Review of ECC Triage Guidelines/Procedures, September 17, 2007, at
   14.
126
    Memorandum Re: Enforcement Complaint Center/How To, September 17, 2007, at 6. These
   specific market practices do not include naked short selling. See E-mail dated October 17,
   2003, Subject: Important Guidelines Re: Investor “Level II” Complaints.
127
    Memorandum Re: Enforcement Complaint Center/How To, September 17, 2007, at 6-7.
128
    E-mail dated October 17, 2003, Subject: Important Guidelines Re: Investor “Level II”
   Complaints.
129
    Id.
130
    See Tell Us About Your Complaint, http://www.sec.gov/complaint/selectconduct.shtml.

Practices Related to Naked Short Selling Complaints and Referrals               March 18, 2009
Report No. 450
                                                Page 19
specific category for naked short selling complaints and linking this category to a
form specifically designed to elicit information pertinent to such complaints, the
Commission may be able to improve the quality of the naked short selling
complaints it receives.
Moreover, the ECC’s policies that result in no triage steps being performed on
naked short selling complaints appear to be inconsistent with the SEC’s guidance
to the public for submitting complaints, which states that “[a]ttorneys in
Enforcement evaluate information and tips concerning violations of the federal
securities laws.” 131 In addition, Trading and Market’s guidance regarding
Regulation SHO, under the heading, “Reporting Alleged Abusive Naked Short
Selling Activity,” states that “[t]he SEC takes information alleging violations of the
federal securities laws very seriously,” and advises the public to send “specific
enforcement-related information” in an e-mail to enforcement@sec.gov. 132 The
information available on the Commission’s website suggests to the public that
Enforcement will develop the facts necessary to evaluate appropriately all types
of complaints alleging violations of the securities laws, including naked short
selling complaints.
Based on our audit work, we determined that the ECC’s current policies and
procedures appear to be significantly limiting the referral of naked short selling
complaints. Between January 1, 2007 and June 1, 2008, fails to deliver
averaged approximately 20.3 billion shares per month, according to data
maintained on the Commission’s website. 133 During this same period, however,
we found that of the approximately 5,000 e-mail complaints about naked short
selling received by the ECC, only 123 (2.5 percent) were forwarded for further
review by Enforcement staff. Moreover, ECC staff informed us that these
complaints were not referred because they involved potentially illegal naked short
selling, but rather because the subjects of the complaints were already involved
in ongoing Enforcement matters. In addition, we found that Enforcement
attorneys who received these referrals involving naked short selling complaints
did not always review the naked short selling allegations during their existing
inquiries or investigations.
Our audit also found that the ECC’s written policies and procedures result in
naked short selling complaints being treated differently from other types of
complaints of securities law violations, such as insider trading complaints. Under
the ECC’s written policies and procedures, in-depth triage steps are performed
for many types of complaints, even if these complaints do not initially include all
of the information needed to decide whether to refer them. 134 In comparison to
the low percentage of referrals of naked short selling complaints between

131
    SEC Center for Complaints and Enforcement Tips, http://.sec.gov/complaint.shtml.
132
    Division of Market Regulation: Key Points About Regulation SHO, April 11, 2005, at 12.
133
    Frequently Requested FOIA Document: Fails-to-Deliver Data – Archive Data,
   http://www.sec.gov/foia/docs/failsdata-archive.htm.
134
    Memorandum Re: Review of ECC Triage Guidelines/Procedures, September 17, 2007, at 6-9.

Practices Related to Naked Short Selling Complaints and Referrals            March 18, 2009
Report No. 450
                                                Page 20
January 1, 2007 and June 1, 2008, the ECC referred 169 (approximately 12.5
percent) of the 1,346 insider trading complaints it received during this period.
ECC and OMS staff indicated that naked short selling complaints were not being
treated differently. Rather, they claimed that the naked short selling complaints
typically received do not include useful information on individual trades, such as
proof of fails to deliver or the absence of locate documentation. According to
Enforcement, the presence of a security on the threshold list does not
necessarily mean naked short selling has occurred, as there are other
explanations for a failure to deliver. Enforcement staff further opined that
violations of Regulation SHO are considered to be technical rule violations that
are better addressed by inspections and examinations, or the rulemaking
process. As a consequence, Enforcement stated that it was not inclined to invest
the substantial resources that would be required to investigate the naked short
selling complaints it receives by examining broker-dealer records for individual
trades, pointing out that, even after such an expenditure of resources, there
might be no illegal naked short selling.
Enforcement acknowledged that in recent months a small but vocal cadre of
advocates has emerged decrying the practice of naked short selling and
suggesting that it has damaging market effects. However, Enforcement
maintained that there is hardly unanimity in the investment community or the
financial media on either the prevalence, or the dangers, of naked short selling
and noted that some view the threat posed by naked short selling as wildly
exaggerated.
Enforcement also pointed out that as the Commission has observed in its
releases, NSCC reports that 99 percent of all trades settle on time, or within the
standard T+3 settlement cycle, and noted that a fail to deliver occurs even where
a security settles one day late. Further, Enforcement stated that more than half
of all fails to deliver and 70 percent of all fails to deliver positions are closed out
within two settlement days after T+3 (two days late), and the vast majority of fails
to deliver are closed out within five days after T+3. According to Enforcement,
therefore, the Commission’s recent rulemaking in the area of naked short selling
recognizes that trades do fail, but that the fails should not persist.
Accordingly, Enforcement stated that given that it is called upon to police the
massive U.S. securities markets with decidedly limited resources, it prioritizes the
complaints that it passes on for further investigation. It therefore focuses on
complaints with a high likelihood of accuracy and credibility (like those of
purported insiders or scam victims), those containing information that can be
readily vetted (i.e., visible price swings in a possible manipulation or insider
trading allegation), or those involving demonstrated, immediate investor hazard
in the current market environment (e.g., Ponzi schemes, improper sales of
auction-rate securities).
The Commission, however, has considered naked short selling to be an issue
that warranted its attention. In adopting the naked short selling antifraud rule,

Practices Related to Naked Short Selling Complaints and Referrals          March 18, 2009
Report No. 450
                                                Page 21
Rule 10b-21, in October 2008, the Commission stated, “We have been
concerned about ‘naked’ short selling and, in particular, abusive ‘naked’ short
selling, for some time.” 135 And in amending Regulation SHO to eliminate the
options market maker exemption from Regulation SHO’s close-out requirement,
the Commission recognized as follows:

        Although high fail levels exist only for a small percentage of issuers,
        we believe that all sellers of securities should promptly deliver, or
        arrange for delivery of, securities to the respective buyer, and that
        all buyers of securities have a right to expect prompt delivery of
        securities purchased. . . . [A]s we have stated on several prior
        occasions, we are concerned about the negative effect that fails to
        deliver may have on the markets and shareholders. . . . In
        addition, issuers and investors have repeatedly expressed
        concerns about fails to deliver in connection with manipulative
        ‘naked’ short selling. . . . To the extent that fails to delver might be
        part of manipulative ‘naked’ short selling, which could be used as a
        tool to drive down a company’s stock price, such fails to deliver
        may undermine the confidence of investors. . . . Unwarranted
        reputational damage caused by fails to deliver might have an
        adverse impact on the security’s price. 136

Hence, we conclude that in light of the serious concerns expressed by many
individual entities and the Commission itself about abusive naked short selling
and its harmful effects on the markets, the ECC should modify its current policies
and procedures to inquire into naked short selling complaints more thoroughly
and to increase the number of referrals of these types of complaints.

Recommendation 1

The Division of Enforcement should develop written in-depth triage analysis
steps for naked short selling complaints, as it has for complaints involving other
types of securities law violations, such as spam-driven manipulations and insider
trading.

Recommendation 2

The Division of Enforcement should revise its written guidance to the
Enforcement Complaint Center staff to ensure that naked short selling complaints
based on information obtained from “Level II” computer screens are given a
proper level of scrutiny and referred for further investigation where appropriate.
135
    “Naked” Short Selling Antifraud Rule, Final rule, Release No. 34-58774, October 14, 2008, at
   7.
136
    Amendments to Regulation SHO, Final rule, Release No. 34-58775, October 14, 2008, at 3-6.

Practices Related to Naked Short Selling Complaints and Referrals                 March 18, 2009
Report No. 450
                                                Page 22
Recommendation 3

The Division of Enforcement should add naked short selling to the list of
categories of complaints on the Commission’s public webpage that solicits
complaints from the public and should develop an online complaint form
specifically tailored to naked short selling complaints.


Finding 2: The Enforcement Complaint Center
Does Not Perform Supervisory Review of Its Initial
Screening of Complaints.
        The ECC does not forward for further investigation the majority of
        the e-mails reviewed during the initial screening process. While
        many of these e-mails are spam and many of them do not involve
        violations of the securities laws, no supervisory review is performed
        of the initial screening results. Supervisory review would provide
        an important internal control over the initial decision not to forward
        e-mails received by the ECC.
Based on data provided by the ECC, on average the ECC received
approximately 2,700 e-mails per day, on a calendar day basis, during the period
we reviewed (from January 1, 2007 to June 1, 2008). Based on our review, the
e-mails received in a typical day include: various advertisements and “junk” e-
mails, investor complaints, and allegations of possible violations of the federal
securities laws.
During our audit, we observed an OIE initial coordinator conduct a review of the
emails the ECC had received on a given day. On that occasion, the initial
coordinator reviewed approximately 3,600 incoming e-mails. At the end of the
initial screening process, approximately two percent of these emails (77 of 3,600)
were forwarded for review by the second-level coordinator. No supervisory
review was performed on the approximately 3,500 emails that were not
forwarded for further review, and the ECC’s current policies and procedures do
not require such a supervisory review.
Supervisory review is an important internal control that provides ongoing
monitoring of activities to ensure that applicable policies and procedures are
followed. 137 In fact, Enforcement’s Regional Office CTR procedures (see
description of CTR process on pages 4-6) recognize the importance of
supervisory review of the handling of complaints received by Enforcement.
According to these procedures, because “an initial decision as to what type of

137
   Internal Control – Integrated Framework, Committee of Sponsoring Organizations of the
  Treadway Commission, July 1994, at 69-70.

Practices Related to Naked Short Selling Complaints and Referrals               March 18, 2009
Report No. 450
                                                Page 23
complaint has enforcement implications often comes down to a matter of
judgment on the part of the person receiving” the complaint, it is “imperative that
there be a regular review by a more senior staff member of the judgments being
made . . ..” 138 The reasons warranting supervisory review of initial decisions
made on CTRs by Regional Office staff would equally seem to apply to the initial
screening decision on e-mail complaints received by the ECC.
An ECC supervisor informed us that he did not perform supervisory reviews of
the initial coordinator analysis of incoming e-mail complaints primarily because
he had previously performed the initial coordinator screening himself and was
aware of the kinds of e-mails that were typically received. The supervisor also
indicated that the sheer volume of e-mails received on a daily basis precluded
supervisory review of the e-mails that were not forwarded for further review.
Notwithstanding the fact that a significant percentage of the e-mails received by
the ECC were spam or did not relate to the securities laws, the initial screening
process serves to eliminate complaints from any further consideration by
Enforcement, and the initial coordinator thus exercises a significant amount of
authority. We believe, therefore, that it is important that supervisory review of e-
mails eliminated during the initial coordinator review be conducted, at least on a
test basis. Enforcement has indicated that it will draft and implement policies and
procedures for supervisory sampling and review of complaints that do not survive
the initial review.

Recommendation 4

The Division of Enforcement’s Enforcement Complaint Center should develop
and implement policies and procedures providing for supervisory review of a
sample of e-mails that are not forwarded for further review as a result of the initial
screening process.




138
   Field Office Procedures for Handling Complaints/Tips/Referral (CTR’s), updated October 6,
  2005.

Practices Related to Naked Short Selling Complaints and Referrals                March 18, 2009
Report No. 450
                                                Page 24
Finding 3: Enforcement’s Procedures for
Processing Complaints, Tips and Referrals
Differ and There is Insufficient Division-Level
Oversight of the CTR Program.
                 Enforcement’s written procedures for processing
                 CTRs at Headquarters and the Regional Offices are
                 different. In addition, there appears to be little, if any,
                 overall Division-level oversight of the CTR program.

Currently, there are two separate sets of written procedures that were developed
by Enforcement for processing CTRs that are received directly by Enforcement
attorneys and do not come through the ECC. One set of procedures applies to
Headquarters, 139 while another set of procedures applies to the Regional
Offices. 140
The Headquarters CTR procedures focus on the processing of CTRs by
Enforcement staff. These procedures instruct staff to:
      •   Review, research and analyze complaints as deemed appropriate
          by their branch;
      •   Consult with their supervisor about the CTR;
      •   Send a response to the complaint if no further contact with the
          complainant is planned; and
      •   If the CTRs describe a potential violation of the Federal securities
          laws, send a completed CTR form, the original CTR and the
          response to OIE. 141
In contrast, the Regional Office CTR procedures do not include specific
procedures for processing CTRs, as they recognize that many Regional Offices
have good systems in place for handling CTRs. 142 Instead, the Regional Office
CTR procedures focus on supervisory review of the staff’s initial judgment as to
whether a CTR should be forwarded to an Enforcement attorney or accountant
for further consideration. 143 To ensure the appropriate level of supervisory

139
    Home Office Procedures for Handling Complaints/Tips/Referrals (CTR’s), updated October 6,
   2005.
140
    Field Office Procedures for Handling Complaints/Tips/Referrals (CTR’s), updated September
   1, 2005.
141
    Home Office Procedures for Handling Complaints/Tips/Referrals (CTR’s), updated October 6,
   2005.
142
    Field Office Procedures for Handling Complaints/Tips/Referrals (CTR’s), updated September
   1, 2005.
143
    Id.

Practices Related to Naked Short Selling Complaints and Referrals               March 18, 2009
Report No. 450
                                                Page 25
oversight, the procedures require regular review of the judgments made on CTRs
by a more senior staff member. 144 The procedures further require monthly
reviews of an office’s CTRs by a supervisor at the Senior Officer level that should
evaluate the judgment made on how the matter should be handled, as well as the
timeliness of the initial decision. 145
Our audit also found that in addition to the two sets of written CTR procedures
described above, three Regional Offices have developed their own written CTR
policies and procedures. These individual Regional Office written procedures
generally appear to supplement the CTR procedures applicable to all Regional
Offices. Other Regional Offices informed us that while they follow Enforcement’s
written Regional Office CTR procedures, they also have their own informal,
unwritten procedures for handling CTRs.
As a result, Regional Offices handled their CTRs differently. For example, we
found that two Regional Offices input CTRs after a decision has been made
whether to pursue or close the complaint. These Offices do not log the complaint
into the CTR system while it is undergoing an initial research or inquiry. Other
Regional Offices input CTRs upon receipt. Another Regional Office informed us
that it commonly does not input complaints into the CTR database if a MUI is
immediately opened on the complaint.
The absence of uniform set of policies and procedures for processing CTRs
leads to inconsistencies regarding the entering of complaints into the CTR data
base. In fact, we found that differences in Regional Offices practices result in
complaints being entered into the CTR database at various stages in the
process, e.g., upon receipt, after initial inquiry, or not being entered at all.
Moreover, the likelihood of inconsistent treatment of complaints is increased by
the absence of any Division-level oversight of the CTR program. OIE staff
informed us that they were not responsible for overseeing the CTR program at
Headquarters, and that the Regional Offices implemented their own CTR
programs as they deemed appropriate for their offices.


Recommendation 5
The Division of Enforcement should develop uniform written policies and
procedures for the Complaints, Tips and Referrals (CTR) Program at
Headquarters and the Regional Offices. These policies and procedures should
include a requirement for when complaints should be entered into the CTR
database, e.g., upon receipt, and should provide for consistent, periodic
supervisory reviews of CTRs.



144
      Id. at 1.
145
      Id. at 1-2.

Practices Related to Naked Short Selling Complaints and Referrals      March 18, 2009
Report No. 450
                                                Page 26
Recommendation 6

The Division of Enforcement should designate an office or individual at
Headquarters to provide nationwide oversight for the Complaints, Tips and
Referrals program.


Finding 4: Headquarters and the Regional Offices
Do Not Consistently Follow Existing Complaint,
Tips and Referrals Processing Procedures.
                 Enforcement’s CTR procedures applicable to
                 Headquarters and the Regional Offices are not being
                 followed on a consistent basis.

During our audit, we performed testing of CTRs processed by Enforcement staff
at Headquarters during the period of our examination and reviewed the results of
questionnaires we submitted to the Regional Offices. Based on the results of this
testing and questionnaires, we found that the CTR procedures for Headquarters
and the Regional Offices were not consistently being followed.
Testing of Headquarters CTR Procedures. We requested documentation
related to the CTRs that were received by Headquarters Enforcement staff
between January 1, 2007 and June 1, 2008. We received and reviewed
documentation related to 82 CTRs to determine whether they complied with the
Headquarters CTR procedures. According to the Headquarters CTR procedures,
the CTR materials that are sent to OIE should include the original complaint, the
response and a CTR form. 146
Of the 82 CTR packages we reviewed, 90 percent (74 of 82) included a
complaint, 60 percent (49 of 82) included the CTR data form, and only 33 percent
(27 of 82) included a response that was sent to the complainant. 147 Our review
also disclosed that OIE does not follow up with Enforcement staff to ensure that
the CTR package is complete and, as a consequence, oftentimes lacked
complete documentation of a complaint. In addition, we found one complaint that
was not entered into the CTR database and, for another complaint, only one of
the five entities named in the complaint appeared in the CTR database. OIE
management indicated that it was just a repository for the CTR data and was not
responsible for overseeing the CTR program at Headquarters.

146
    Home Office Procedures for Handling Complaints/Tips/Referrals (CTR’s), updated October 6,
   2005, at 1.
147
    We noted two instances where OIEA had informed Enforcement that no response to the
   complaint was necessary because OIEA had already responded. However, OIEA’s response
   was not included in the CTR package.

Practices Related to Naked Short Selling Complaints and Referrals               March 18, 2009
Report No. 450
                                                Page 27
Questionnaires about Regional Office CTR Policies and Procedures. We
issued an e-mail questionnaire to all 11 Commission Regional Offices to obtain
information about their CTR policies and procedures and to determine whether
and how its monthly CTR reviews were conducted. Based upon the responses
we received to the questionnaire, we determined that:
      •   Five Regional Offices performed monthly CTR reviews;
      •   One Regional Office sometimes performed its reviews every six weeks,
          rather than monthly;
      •   One Regional Office reviewed its CTRs on a quarterly basis;
      •   Two Regional Offices did not perform the monthly reviews of CTRs
          because senior officers were involved with CTRs throughout the process;
      •   One Regional Office did not perform monthly reviews because the Branch
          Chiefs and their staff were viewed as responsible for their judgments on
          CTRs; and
      •   One Regional Office (which was previously a District Office and reported
          to a Regional Office) did not perform its own CTR reviews, but rather
          forwarded its complaints to another Regional Office for review.
Thus, the responses to our questionnaires disclosed that only five of eleven
Regional Offices were regularly performing monthly CTR reviews, as required by
the Regional Office CTR procedures, despite the emphasis that these
procedures place on supervisory review. 148


Recommendation 7
The Division of Enforcement should require that the Office of Internet
Enforcement (OIE) performs the necessary follow-up to ensure that all
Complaints, Tips and Referrals (CTR) packages forwarded to OIE contain
complete documentation concerning a complaint, and that all CTRs are entered
into the CTR database.


Recommendation 8
The Division of Enforcement should require that Regional Office senior officials
perform monthly reviews of Complaints, Tips and Referrals (CTR), as is required
by the Regional Office CTR procedures.




148
   See Field Office Procedures for Handling Complaints/Tips/Referrals (CTR’s), updated October
  6, 2005.

Practices Related to Naked Short Selling Complaints and Referrals               March 18, 2009
Report No. 450
                                                Page 28
Finding 5: Enforcement’s Complaint Tracking
Systems Need Improvement.
                 Enforcement’s complaint tracking systems do not
                 provide the capabilities that Enforcement needs to
                 manage effectively the large volume of complaints
                 that it receives.

Enforcement uses several automated systems to track complaints. The ECC
uses dedicated folders in the Commission’s e-mail system to receive and
maintain complaints sent to the Enforcement’s complaint mailbox,
enforcement@sec.gov. Enforcement also uses the CTR database to track
complaints that Enforcement Headquarters and Regional Office staff receive by a
variety of methods, including telephone, letter, fax and e-mail. 149
Data tracking systems should identify, capture and communicate information to
enable the users of the systems to carry out their responsibilities efficiently and
effectively. 150 As the information generated by these systems assists
management in making crucial decisions regarding its operations, data systems
should include adequate controls to ensure, among other things, the
completeness of data. 151 As discussed below, our audit found that the ECC and
CTR systems currently in use by Enforcement to track complaints are insufficient
in several important respects.
The ECC’s Mailbox Functions. The ECC’s complaint mailbox serves more as a
repository for e-mails than as a complaint management information system. The
e-mail folders the ECC uses to organize the e-mails it receives have basic sort
capabilities. However, the ECC’s e-mail system has several limitations: (1) it
lacks the ability to translate e-mails submitted in foreign languages; (2) it has
limited report generation capability; (3) complaints cannot be tracked through the
different levels of review; and (4) there is no ability to link complaints received
with subsequent related investigations or enforcement actions.
Our audit disclosed that the limitations of the ECC’s e-mail system hamper OIE’s
ability to manage the e-mail complaints it receives effectively. For example, due
to the high volume of e-mails maintained in the ECC’s system, basic analysis of
the e-mails has to be conducted through a sort, and is very difficult and time-
consuming to perform. In addition, because the ECC cannot translate e-mails
that are submitted in foreign languages, the ECC initial review coordinators

149
    In addition, OMS receives referrals of complaints from the SROs through its SMRS interface.
   During our audit, we learned that OMS has requested enhancements of the SMRS system that
   are pending.
150
    Internal Control – Integrated Framework, Committee of Sponsoring Organizations of the
   Treadway Commission, July 1994, at 59.
151
    Id.

Practices Related to Naked Short Selling Complaints and Referrals                 March 18, 2009
Report No. 450
                                                Page 29
automatically discard these emails, unless they include a section in English that
contains information in which Enforcement is interested.
CTR Database Capabilities. Overall, the CTR database has greater capabilities
than the ECC e-mail system has. For example, the CTR database has basic
sorting and searching functions, as well as an add-on program that is available
for generating reports. The CTR database also appears to generate sequential
numbers for each record. We further found that the CTR system includes useful
information about the nature of the complaint, its source, its disposition, and the
name of the staff who performed the initial review of the complaint.
Nonetheless, we found that improvements could be made to enhance the
effectiveness of the CTR system. The CTR system does not record the name of
the supervisor or senior staff member who reviewed the complaint. This
information would be useful to document the supervisory and senior staff reviews
required by the Regional Office CTR procedures. In addition, staff in two
Regional Offices who used the CTR database stated that improved data search
and report generating capabilities would be helpful. 152 We also learned that
three Regional Offices developed their complaint tracking systems to obtain
some of the capabilities lacking in the Headquarters' CTR database. Finally, we
found that the reliability of the CTR system could be questioned because
duplicate records exist and there appear to be gaps in the sequential numbering
of complaints.
In addition, it recently came to our attention that three Regional Offices have
experienced difficulties accessing the CTR system to input information into the
database for the past few months.
During our audit, we learned that OIEA uses a complaint tracking system that
captures correspondence, analysis and disposition information used for tracking
public and investor complaints and inquiries. This system provides many of the
capabilities that Enforcement’s CTR system lacks (e.g., better searching and
report generation capabilities). Enforcement may wish to use OIEA’s system as
a model for improving the CTR system.

Recommendation 9

The Division of Enforcement should improve the analytical capabilities of the
Enforcement Complaint Center’s e-mail complaint system, including its search
and report generation capabilities, as well as its ability to translate foreign-
language e-mails.



152
   We were informed during the audit that reports were previously generated from the CTR
  system for Headquarters management review, but that this process was discontinued due to a
  lack of interest in the information.

Practices Related to Naked Short Selling Complaints and Referrals              March 18, 2009
Report No. 450
                                                Page 30
Recommendation 10

The Division of Enforcement should improve the Complaints, Tips and Referrals
database to include additional information about, and to better track, complaints,
e.g., by adding data fields to document supervisory and senior staff review, and
improving its searching and report generating capabilities, and should resolve
problems with Regional Office access to the database.

Finding 6: The Office of Internet Enforcement
Does Not Track the Results of Referrals of
Complaints.
        OIE had developed a database to track the results of its
        referrals of complaints to Enforcement staff for further
        investigation.   However, OIE discontinued use of this
        database in 2007 due to problems encountered with the
        system. As a consequence, OIE does not currently track the
        results of complaint referrals.

During an audit the OIG conducted in 2003 of Enforcement’s Internet program, 153
we learned that OIE was developing a new database to track the results of
complaints that OIE referred for further investigation. This database was
intended to enhance OIE’s complaint tracking abilities by reflecting whether a
MUI or investigation was opened based upon a complaint referral from OIE.
While conducting our current audit, we inquired about the status of this database
and were informed that it was discontinued in 2007, as a result of technical
difficulties encountered with the system, such as communicating with other
systems.
Information systems are an integral part of operational activities, and should
provide management with reports on performance relative to established
objectives. 154 Because OIE discontinued use of its previous referral tracking
system, OIE currently has no system that tracks information on the results of its
referrals of complaints. As a consequence, OIE is not collecting in any
formalized manner information showing whether complaint referrals led to the
opening of a MUI or investigation. Such information would assist OIE staff in
understanding what types of complaints Enforcement staff have found warranted
the opening of a MUI or investigation, and determining what types of complaints
should be referred in the future. A complaint referral database would also be

153
   Internet Enforcement Program, OIG Report No. 352, January 13, 2003.
154
   Internal Control – Integrated Framework, Committee of Sponsoring Organizations of the
  Treadway Commission, July 1994, at 59.


Practices Related to Naked Short Selling Complaints and Referrals               March 18, 2009
Report No. 450
                                                Page 31
useful to generate statistical information concerning the results of complaint
referrals and could serve as a useful management tool.


Recommendation 11

The Division of Enforcement should ensure that the Office of Internet
Enforcement updates and resumes using its previous complaint referral tracking
system, or develops a new system for tracking information on the results of
complaint referrals.




Practices Related to Naked Short Selling Complaints and Referrals       March 18, 2009
Report No. 450
                                                Page 32
                                                                            Appendix I


                      Abbreviations and Acronyms

CNS                       Continuous Net Settlement
CTR                       Complaint, Tip, and Referral
DTC                       Depository Trust Company
DTCC                      Depository Trust & Clearing Corporation
ECC                       Enforcement Complaint Center
Enforcement               Division of Enforcement
FINRA                     Financial Industry Regulatory Authority
GAO                       Government Accountability Office
MUI                       Matter Under Inquiry
NYSE                      New York Stock Exchange
NSCC                      National Securities Clearing Corporation
OCIE                      Office of Compliance Inspections and Examinations
OIE                       Office of Internet Enforcement
OIEA                      Office of Investor Education and Advocacy
OIG                       Office of Inspector General
PIPE                      Private Investment in Public Equity
OMS                       Office of Market Surveillance
SEC/Commission            U.S. Securities and Exchange Commission
SMRS                      SRO Market Referral System
SRO                       Self-Regulatory Organization
Trading and               Division of Trading and Markets (formerly the Division of
 Markets                   Market Regulation)




Practices Related to Naked Short Selling Complaints and Referrals           March 18, 2009
Report No. 450
                                               Page 33
                                                                      Appendix II


                           Scope and Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. These standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. We obtained data from Enforcement’s ECC e-mail system, CTR
system, and SRO Market Referral System for the period from January 1, 2007 to
June 1, 2008. We conducted our fieldwork from May 2008 to January 2009.

Methodology. We interviewed staff and managers in Enforcement, Trading and
Markets, OIEA, OCIE, and several Regional Offices to obtain an understanding
of the issues pertinent to naked short selling, as well as complaint receipt and
processing procedures. We requested and obtained copies of the naked short
selling complaint e-mails received by the ECC, the CTRs received by
Enforcement’s OIE, and a list of the SRO referrals received by OMS for the
period from January 1, 2007 through June 1, 2008. We used this information to
estimate total naked short selling complaints received and to test compliance
with applicable policies and procedures.

In addition, we submitted a questionnaire, in June 2008, to the Commission’s 11
Regional Offices to obtain information about their complaint processing
procedures. We received responses from all 11 Regional Offices and followed
up on the responses received as appropriate. We also reviewed selected
information concerning naked short selling that was generated by the
Commission or outside parties, including numerous complaints about naked
short selling that the OIG received.

Internal/Management Controls. We reviewed internal controls that were
considered significant within the context of the audit objectives. We interviewed
Enforcement management and staff, identified and reviewed applicable policies
and procedures, obtained and reviewed complaints and complaint tracking data,
and tested the data for compliance with selected policies and procedures. We
identified areas for improvement, as listed in Appendix IV.

Use of Computer-Processed Data. We used computer-processed data such
as e-mails, Excel spreadsheets, and Commission database information. To the
extent practical, we compared the data we received with the source documents,
such as complaints or data input forms. We did not perform extensive tests of

Practices Related to Naked Short Selling Complaints and Referrals     March 18, 2009
Report No. 450
                                               Page 34
                                                                           Appendix II

system general or application controls. While we found some discrepancies in
the CTR database, including duplicate records, gaps in the sequential record
numbering, and inconsistent procedures for data input, these errors did not
preclude our use of the computer-processed data to meet our audit objectives or
change our conclusions. Also, we are making recommendations to address the
issue of inconsistent procedures for CTR data input.

Judgmental Sampling. Due to the relatively small universe of Headquarters
CTRs submitted to OIE between January 1, 2007 and June 1, 2008, rather than
selecting a judgmental sample, we reviewed the entire universe in order to test
for compliance with Enforcement’s established policies and procedures for
Headquarters CTR complaint processing. Specifically, we requested and tested
documentation related to 82 CTR packages that were submitted to OIE between
January 1, 2007 and June 1, 2008 (which should consist of a complaint,
response and CTR form).

High-Risk Areas. GAO has not specifically identified naked short selling
complaint processing as a high-risk area at the agency. However, this issue has
generated a great deal of attention from Congress, GAO, and the public, and the
GAO is currently conducting a review of the implementation of Regulation SHO.
Additionally, in the wake of the recent financial crisis and increased concerns
about abusive naked short selling, the Commission entered an initial temporary
emergency order that required all persons to borrow or arrange to borrow
securities of certain financial institutions prior to affecting an order for a short sale
of those securities. See Securities Exchange Act Release No. 34-58166, July
15, 2008. The Commission subsequently entered additional temporary
emergency orders that, among other things, prohibited short selling in the
publicly traded shares of certain financial firms, imposed enhanced delivery
requirements on the sales of all equity securities by amending the Commission’s
short selling regulation, Regulation SHO, the options market maker exception
from Regulation SHO’s close-out requirement, and implementing a naked short
selling antifraud rule. See Securities Exchange Act Release No. 34-58572,
September 17, 2008; Securities Exchange Act Release No. 34-58592,
September 18, 2008.

Prior Audit Coverage. We found no prior audit coverage of the issue of naked
short selling complaint processing. However, we noted that a recent GAO report
addressed needed improvements in Enforcement’s electronic system for the
receipt of referrals of potential securities law violations from the SROs. See
GAO-08-33, Securities and Exchange Commission: Opportunities Exist to
Improve Oversight of Self-Regulatory Organizations, November 15, 2007.
We also followed-up on the status of findings and recommendations contained in
SEC OIG Enforcement Internet Program, Report No. 352, issued January 13,
2003, regarding OIE, which is responsible for the ECC. We determined that all
the recommendations were properly closed.

Practices Related to Naked Short Selling Complaints and Referrals           March 18, 2009
Report No. 450
                                                Page 35
                                                                         Appendix III


                                            Criteria

Section 17(a) of the Securities Act of 1933, 15 U.S.C. § 77q. Prohibits the use
of interstate commerce for the purpose of fraud or deceit in the offer or sale of
any security or any security-based swap agreement.

Section 10(b) of the Securities Exchange Act of 1934, 15 U.S.C. § 78j.
Prohibits the use of interstate commerce to use or employ a manipulative or
deceptive device or contrivance in contravention of the Securities and Exchange
Commission’s rules in connection with the purchase of sale of a security.

SEC Rule 10b-5, 17 C.F.R. § 240.10b-5. Prohibits the employment of
manipulative and deceptive devices by using interstate commerce, or the mails
or facilities of any national securities exchange in connection with the purchase
of sale of any security.

SEC Rule 10b-21, 17 C.F.R. § 240.10b-21, SEC Release 34-58774 (Oct. 14,
2008). Recently adopted anti-fraud rule specifically aimed at fails to deliver
securities associated with naked short selling.

SEC Rule 15c6-1, 17 C.F.R. § 240.15c6-1. Prohibits broker-dealers from
effecting or entering into contracts for the purchase or sale of securities that
provide for payment of funds and delivery of securities later than three business
days after the date of the contract, unless otherwise expressly agreed to by the
parties at the time of the transaction.

SEC Rule 203, 17 C.F.R. § 242.203. Initially adopted in 2004 as part of
Regulation SHO, the Securities and Exchange Commission’s short sale
regulation. Requires broker-dealers, prior to effecting short sales in all equity
securities, to locate securities available for borrowing in order to deliver securities
on the settlement date of the transaction. It also imposes additional
requirements on broker-dealers for securities in which a substantial amount of
fails to deliver have occurred.

SEC Rule 204T, 17 C.F.R. § 242.204T, SEC Release 34-58773 (Oct. 14, 2008).
Recently adopted interim final temporary rule amendment to Regulation SHO.
Requires that securities be purchased or borrowed to close out any fail to deliver
position in an equity security by the beginning of regular trading hours on the
settlement day following the date on which the fail to deliver position occurred.
This temporary rule is effective through July 31, 2009.

July 15, 2008 SEC Emergency Order, Securities Exchange Act Release No.
58166. Temporary emergency order providing that no short sale could be

Practices Related to Naked Short Selling Complaints and Referrals         March 18, 2009
Report No. 450
                                               Page 36
                                                                         Appendix III

effected in the securities of certain financial firms unless the seller or its agent
borrowed or arranged to borrow the security or otherwise had the security
available to borrow prior to effecting the short sale and delivers the security on
the settlement date. The order took effect on July 21, 2008, and was
subsequently extended until August 12, 2008.

September 17, 2008 SEC Emergency Order, Securities Exchange Act
Release No. 34-58572. Imposed a number of additional emergency measures,
that included adding a temporary rule to Regulation SHO, Rule 204T; temporarily
eliminating the options market maker exception from Regulation SHO’s close-out
requirement, and making immediately effective Rule 10b-21, a naked short
selling antifraud rule. The order was effective from September 18, 2008 until
October 1, 2008.

September 18, 2008 SEC Emergency Order, Securities Exchange Act
Release No. 34-58592. Temporarily prohibited any short selling in the publicly
traded shares of certain financial firms. The order was effective until October 2,
2008.

Enforcement Complaint Center Policies and Procedures. Prescribe policies
and procedures for the receipt and processing of incoming complaints by
Enforcement’s ECC. Include Memorandum Re: Enforcement Complaint
Center/How To, September 17, 2007; Memorandum Re: Review of ECC Triage
Guidelines/Procedures, September 17, 2007; and E-mail dated October 17,
2003, Subject: Important Guidelines RE: Investor “Level II” Complaints.

Enforcement’s Complaints, Tips and Referrals Procedures. Prescribe
policies and procedures for the processing CTRs received by Division of
Enforcement staff outside normal complaint channels. Include Home Office
Procedures for Handling Complaints/Tips/Referrals, updated October 6, 2005;
and Field Office Procedures for Handling Complaints/Tips/Referrals, updated
September 1, 2005.




Practices Related to Naked Short Selling Complaints and Referrals         March 18, 2009
Report No. 450
                                                Page 37
                                                                     Appendix IV


                         List of Recommendations

Recommendation 1:

The Division of Enforcement should develop written in-depth triage analysis
steps for naked short selling complaints, as it has for complaints involving other
types of securities law violations, such as spam-driven manipulations and insider
trading.

Recommendation 2:

The Division of Enforcement should revise its written guidance to the
Enforcement Complaint Center staff to ensure that naked short selling complaints
based on information obtained from “Level II” computer screens are given a
proper level of scrutiny and referred for further investigation where appropriate.

Recommendation 3:

The Division of Enforcement should add naked short selling to the list of
categories of complaints on the Commission’s public webpage that solicits
complaints from the public and should develop an online complaint form
specifically tailored to naked short selling complaints.

Recommendation 4:

The Division of Enforcement’s Enforcement Complaint Center should
develop and implement policies and procedures providing for supervisory
review of a sample of e-mails that are not forwarded for further review as a
result of the initial screening process.

Recommendation 5:

The Division of Enforcement should develop uniform written policies and
procedures for the Complaints, Tips and Referrals (CTR) Program at
Headquarters and the Regional Offices. These policies and procedures should
include a requirement for when complaints should be entered into the CTR
database, e.g., upon receipt, and should provide for consistent, periodic
supervisory reviews of CTRs.




Practices Related to Naked Short Selling Complaints and Referrals     March 18, 2009
Report No. 450
                                               Page 38
                                                                      Appendix IV

Recommendation 6:

The Division of Enforcement should designate an office or individual at
Headquarters to provide nationwide oversight for the Complaints, Tips and
Referrals program.

Recommendation 7:

The Division of Enforcement should require that the Office of Internet
Enforcement (OIE) performs the necessary follow-up to ensure that all
Complaints, Tips, and Referrals (CTR) packages forwarded to OIE contain
complete documentation concerning a complaint, and that all CTRs are entered
into the CTR database.


Recommendation 8:

The Division of Enforcement should require that Regional Office senior officials
perform monthly reviews of Complaints, Tips and Referrals (CTR), as is required
by the Regional Office CTR procedures.


Recommendation 9:
The Division of Enforcement should improve the analytical capabilities of the
Enforcement Complaint Center’s e-mail complaint system, including its search
and report generation capabilities, as well as its ability to translate foreign-
language e-mails.

Recommendation 10:
The Division of Enforcement should improve the Complaints, Tips and Referrals
database to include additional information about, and to better track, complaints,
e.g., by adding data fields to document supervisory and senior staff review, and
improving its searching and report generating capabilities, and should resolve
problems with Regional Office access to the database.

Recommendation 11:
The Division of Enforcement should ensure that the Office of Internet
Enforcement updates and resumes using its previous complaint referral tracking
system, or develops a new system for tracking information on the results of
complaint referrals.

Practices Related to Naked Short Selling Complaints and Referrals      March 18, 2009
Report No. 450
                                               Page 39
                                                                                             Appendix V


                            Management Comments

Division of Enforcement                                                           March 5, 2009

Thank you for the latest draft of the report. Our formal written comments remain the
same. As to the specific recommendations:

      •   Recommendations 1-3: We do not concur.
      •   Recommendation 4: We concur.
      •   Recommendations 5-11: In light of the Chairman's efforts in this area, as shown
          in the Commission's release today, we wonder whether now is the appropriate
          time for recommendations that approach referrals in a fragmented manner. We
          therefore would prefer to take no position until after the Commission's
          comprehensive review is done. If we do not have that option then we should be
          put down as not concurring.

Enforcement’s Comments:                                                           February 17, 2009

This letter is in response to Audit Report No. 450, regarding Practices Related to Naked
Short Sale Complaints and Referrals.

Market manipulation effected by abusive “naked” short selling (“NSS”) -- like
manipulation in all its other forms -- is an issue that the Enforcement Division takes very
seriously. However, as the Report confirms, “naked” short sales, i.e., selling short
without having borrowed the securities to make delivery, can occur for legitimate
reasons, without any sort of manipulative intent. In addition, the mere fact that a stock
may experience “failures to deliver” does not imply a violation of the federal securities
laws. Indeed, a fail may occur as a result of a long sale (i.e., a sale of owned securities)
as well as a short sale.

In recent months, a small but vocal cadre of advocates has emerged decrying the practice
and suggesting that it has damaging market effects. But there is hardly unanimity in the
investment community or the financial media on either the prevalence, or the dangers, of
“naked” short selling. The Commission has repeatedly stressed the fact that the practice
can provide needed market liquidity in certain circumstances. For instance, market
makers sometimes engage in legitimate “naked” short selling when there is high buying
demand in a security. 155 Still others view the threat posed by “naked” short selling as
wildly exaggerated, and point to instances in which allegations of abusive “naked” short

155
    If a market maker fails to deliver securities by settlement date (T+3), Commission rules require that such
fails to deliver be closed out promptly.

Practices Related to Naked Short Selling Complaints and Referrals                             March 18, 2009
Report No. 450
                                                 Page 40
                                                                                              Appendix V

selling were used to cover up other management malfeasance, like the dumping on the
market of large blocks of unregistered shares. We have recently alleged such behavior in
the widely-discussed CMKM Diamonds litigation. Other fraud defendants have also
attempted to portray depressed stock prices as the work of clandestine short sellers.

Despite its assertions regarding the potential danger of “naked” short selling and the
growing interest in the subject, the Report can cite to no bona fide studies or empirical
data regarding the practice’s market impact. The Division of Trading and Markets
debunks the theory that NSS creates “counterfeit” or “phantom” shares. 156 The Report
cites to the emergency orders, final rules, and interim final temporary rules addressing
short selling, including “naked” short selling that the Commission issued in July,
September, and October of 2008. When it issued each of these rules, the Commission
noted in its releases that the purpose of the emergency actions was to address the lack of
market confidence and investor fears that short selling, including legitimate short selling,
could exacerbate the current financial crisis by creating downward price momentum
unrelated to the fundamental financials of issuers.

As the Commission has noted in its releases, NSCC reports that 99% (by dollar value) of
all trades settle on time, or within the standard T+3 settlement cycle. It is important to
note that a fail to deliver occurs even where a security settles one day late. As the
Commission noted in its October interim final temporary rule release adopting Rule
204T, more than half of all fails to deliver and 70% of all fails to deliver positions are
closed out within two settlement days after T+3 (two days late). The vast majority of
fails to deliver are closed out within five days after T+3. While the Commission recently
strengthened the close-out requirements because it is concerned about the impact of
persistent fails on market confidence, these fails to deliver are not necessarily the result
of illicit activity, such as abusive “naked” short selling. As noted above, there may be
legitimate reasons for fails to deliver, including mechanical errors or processing delays.
Thus, while the Commission has recognized that timely settlement of trades is important
for market integrity and investor confidence, the Commission’s recent rulemaking in this
area recognizes that trades do fail (whether from long sales or short sales) but that fails
should not persist.

The Division of Enforcement is called upon to police the massive U.S. securities markets
with decidedly limited resources and, in order to fulfill our mission of investor protection,
we must intelligently leverage those resources. As manager of the Enforcement
Complaint Center (ECC), the Office of Internet Enforcement (OIE) is under the same
mandate with respect to its limited staff. 157

156
   See http://www.sec.gov/divisions/marketreg/mrfaqregsho1204.htm, Question 7.1
157
   While OIE manages the ECC and is responsible for training staff that review complaints, OIE’s
responsibilities do not extend to tracking or stipulating investigative follow-up to complaints referred to

Practices Related to Naked Short Selling Complaints and Referrals                              March 18, 2009
Report No. 450
                                                  Page 41
                                                                                        Appendix V



In order to derive the maximum value from the investor complaints it handles, OIE is
charged with prioritizing and passing on for further investigation complaints that contain
the most facially compelling information regarding possible violations of the federal
securities laws, the material most likely to trigger Enforcement investigations leading to
filed actions. This is accomplished by focusing on complaints with a high likelihood of
accuracy and credibility (like those of purported insiders or scam victims), those whose
information can be readily vetted (i.e., visible price swings in a possible manipulation or
insider trading allegation), or those involving demonstrated, immediate investor hazard in
the current market environment (Ponzi schemes, improper sales of auction-rate
securities).

The ECC receives all sorts of communications. Investor complaints run the gamut from
the painstakingly specific and well-researched to the speculative and fanciful. So-called
“Level II” complaints – that is, assertions of market manipulation or distortion from retail
investors based purely on observations of private computer terminals – rely on simple
trading snapshots and are really no more reliable an indicator of fraud than a dart tossed
at a dartboard full of company names. Other types of complaints, like those based on
direct in-person or electronic solicitation, for example, are far more likely to paint a
coherent picture for investigators.

As the Report notes, a large number of the complaints received provide no support for the
allegations. For instance, some complaints merely state that no one should be permitted
to sell stock that they do not own. However, legitimate short selling by definition is the
sale of a security that the seller does not own. Other complaints allege that a specific
issuer’s price has declined and the complainant believes the decline must be the result of
“naked” short selling, even though the complainant cannot know if the price decline is
due to “naked” short selling, legitimate short selling where the seller has borrowed and
timely delivered securities, or other legitimate price discovery mechanisms. For instance,
price declines may occur because owners of the security may have sold their securities in
response to unfavorable financial information or unfavorable news about the issuer or the
issuer’s particular industry.

The best sources for information on violations relating to “naked” short selling is the
SRO, which has primary responsibility for surveillance of its trading. And we receive a
large number of referrals from the SROs, addressing all forms of alleged investment
misconduct. It is telling that, of the 900 SRO referrals Enforcement received during the
Report’s 18-month survey period, none involved the practice of “naked” short selling.
That is to say, the people closest to the trading, with the deepest understanding of and

Regional or Home Office attorneys. Similarly, OIE has not been charged with approving, or supervising
compliance with, CTR procedures in the regions.

Practices Related to Naked Short Selling Complaints and Referrals                        March 18, 2009
Report No. 450
                                               Page 42
                                                                                              Appendix V

access to the data, did not see and refer any of the large-scale, damaging “naked” short
sale abuse about which the Report hypothesizes. That having been said, as the Report
notes, the Commission has brought Enforcement actions for conduct including “naked”
short selling, where violations have occurred. 158

Consequently, with respect to Recommendations 1-3 contained in the Report (specific
triage steps for NSS complaints, revision of OIE training materials to mandate enhanced
scrutiny for Level II complaints, creation of specific NSS complaint form), the Division
believes that these are not optimal uses for Commission resources and are not calculated
to yield a higher quality of investigative referrals to Enforcement attorneys in the Home
Office and Regions.

With regards to Recommendation 4, suggesting supervisory sampling and review of
complaints that do not survive “first stage” triage review, we concur and will draft and
implement suitable policies and procedures.

The remaining Recommendations relate to suggested modifications to the Division’s
general complaint-handling systems, both those handling (i) information that flows
directly to OIE from the public (the ECC), and (ii) information received by non-OIE
attorneys in the regions and Home Office, reviewed, resolved and catalogued by OIE (the
CTR program).

As you know, a new Chairman has taken office, and her staff is currently engaged in an
agency-wide effort to determine how tips and complaints are handled in the various
Divisions and Offices. No doubt this effort will result in important changes to the
agency’s approach, and will likely address the principles discussed in the Report.
Considering that such an effort is underway, the Division believes that the best way
forward on Recommendations 5-11 is to cooperate fully in the Commission’s review, and
to implement its recommendations, along with the rest of the agency, in a coordinated
fashion.




158
      See, e.g., In re Sandell Asset Management, et al., Securities Act Rel. No. 8857 (October 10, 2007).

Practices Related to Naked Short Selling Complaints and Referrals                             March 18, 2009
Report No. 450
                                                   Page 43
                                                                         Appendix VI


        OIG Response to Management Comments
We are disappointed that the Division of Enforcement (Enforcement) only
concurred with one of the 11 recommendations in this audit report. We are
particularly concerned that Enforcement did not concur with the report’s first
three recommendations that it develop written in-depth triage analysis steps for
naked short selling complaints, as it has for other complaints; that it revise its
written guidance to the Enforcement Complaint Center staff to ensure that naked
short selling complaints are given a proper level of scrutiny and referred for
further investigation; and that it add naked short selling to the list of categories of
complaints on the Commission’s public webpage and develop an online
complaint form specifically tailored to naked short selling complaints.

As we discussed in our report, the SEC has repeatedly recognized that naked
short selling can depress stock prices and have harmful effects on the market. In
adopting a naked short selling antifraud rule, Rule 10b-21, in October 2008, the
Commission stated, “We have been concerned about ‘naked’ short selling and, in
particular, abusive ‘naked’ short selling, for some time.” In this report, we
determined that Enforcement’s current policies and procedures appear to limit
significantly the referral of naked short selling complaints, and that its written
policies and procedures result in naked short selling complaints being treated
differently from other types of complaints of securities law violations.
Notwithstanding the Commission’s previous statement and our findings,
Enforcement responded to our report by stating that “there is hardly unanimity in
the investment community or the financial media on either the prevalence, or the
dangers, of ‘naked’ short selling,” and references the view held by some that “the
threat posed by ‘naked’ short selling is wildly exaggerated . . . .” Accordingly,
Enforcement concludes that the report’s recommendations, which are intended to
allow for more thorough investigations of naked short selling complaints, are not
optimal uses of Commission resources. We would hope that Enforcement
reconsiders this position in light of the Commission’s stated concerns about the
effect of naked short selling on the market.

We are also disappointed that Enforcement does not intend to implement
immediately our specific recommendations (Nos. 5-11) designed to improve its
complaints, tips and referral process. We understand that the SEC’s new
Chairman has announced the enlisting of a contractor to conduct a
comprehensive review of internal procedures used to evaluate tips, complaints,
and referrals for the entire agency, and we will certainly work closely with the
contractor to assist with this review. Nonetheless, we believe that
implementation of our recommended improvements should begin now, in
coordination with the contractor’s review, to ensure that the implementation of
necessary improvements to Enforcement’s complaint system is not unduly
delayed.
Practices Related to Naked Short Selling Complaints and Referrals          March 18, 2009
Report No. 450
                                               Page 44
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Ideas)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
